<html>
<title> - NEED FOR PROPER FOREST MANAGEMENT ON FEDERAL RIGHTS-OF-WAY TO ENSURE RELIABLE ELECTRICITY SERVICE</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
 NEED FOR PROPER FOREST MANAGEMENT ON FEDERAL RIGHTS-OF-WAY TO ENSURE 
                     RELIABLE ELECTRICITY SERVICE

=======================================================================

                        JOINT OVERSIGHT HEARING

                               before the

                    SUBCOMMITTEE ON WATER AND POWER

                             joint with the

               SUBCOMMITTEE ON FORESTS AND FOREST HEALTH

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                         Wednesday, May 3, 2006

                               __________

                           Serial No. 109-50

                               __________

           Printed for the use of the Committee on Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov




                                 _____

                 U.S. GOVERNMENT PRINTING OFFICE

27-377 PDF              WASHINGTON : 2006
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail:
Stop SSOP, Washington, DC 20402-0001




                         COMMITTEE ON RESOURCES

                 RICHARD W. POMBO, California, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska                    Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Eni F.H. Faleomavaega, American 
Elton Gallegly, California               Samoa
John J. Duncan, Jr., Tennessee       Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Barbara Cubin, Wyoming               Donna M. Christensen, Virgin 
  Vice Chair                             Islands
George P. Radanovich, California     Ron Kind, Wisconsin
Walter B. Jones, Jr., North          Grace F. Napolitano, California
    Carolina                         Tom Udall, New Mexico
Chris Cannon, Utah                   Raul M. Grijalva, Arizona
John E. Peterson, Pennsylvania       Madeleine Z. Bordallo, Guam
Jim Gibbons, Nevada                  Jim Costa, California
Greg Walden, Oregon                  Charlie Melancon, Louisiana
Thomas G. Tancredo, Colorado         Dan Boren, Oklahoma
J.D. Hayworth, Arizona               George Miller, California
Jeff Flake, Arizona                  Edward J. Markey, Massachusetts
Rick Renzi, Arizona                  Peter A. DeFazio, Oregon
Stevan Pearce, New Mexico            Jay Inslee, Washington
Henry Brown, Jr., South Carolina     Mark Udall, Colorado
Thelma Drake, Virginia               Dennis Cardoza, California
Luis G. Fortuno, Puerto Rico         Stephanie Herseth, South Dakota
Cathy McMorris, Washington
Bobby Jindal, Louisiana
Louie Gohmert, Texas
Marilyn N. Musgrave, Colorado
Vacancy

                     Steven J. Ding, Chief of Staff
                      Lisa Pittman, Chief Counsel
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

                    SUBCOMMITTEE ON WATER AND POWER

               GEORGE P. RADANOVICH, California, Chairman
        GRACE F. NAPOLITANO, California, Ranking Democrat Member

Ken Calvert, California              Raul M. Grijalva, Arizona
Barbara Cubin, Wyoming               Jim Costa, California
Greg Walden, Oregon                  George Miller, California
Thomas G. Tancredo, Colorado         Mark Udall, Colorado
J.D. Hayworth, Arizona               Dennis A. Cardoza, California
Stevan Pearce, New Mexico            Vacancy
Cathy McMorris, Washington           Vacancy
  Vice Chair                         Nick J. Rahall II, West Virginia, 
Louie Gohmert, Texas                     ex officio
Vacancy
Richard W. Pombo, California, ex 
    officio
                                 ------                                

               SUBCOMMITTEE ON FORESTS AND FOREST HEALTH

                     GREG WALDEN, Oregon, Chairman
             TOM UDALL, New Mexico, Ranking Democrat Member

John J. Duncan, Jr., Tennessee       Dale E. Kildee, Michigan
Wayne T. Gilchrest, Maryland         Neil Abercrombie, Hawaii
Chris Cannon, Utah                   Dan Boren, Oklahoma
John E. Peterson, Pennsylvania       Peter A. DeFazio, Oregon
  Vice Chair                         Jay Inslee, Washington
Thomas G. Tancredo, Colorado         Mark Udall, Colorado
J.D. Hayworth, Arizona               Dennis Cardoza, California
Jeff Flake, Arizona                  Stephanie Herseth, South Dakota
Rick Renzi, Arizona                  Nick J. Rahall II, West Virginia, 
Henry Brown, Jr., South Carolina         ex officio
Cathy McMorris, Washington
Richard W. Pombo, California, ex 
    officio
                                 ------                                
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on Wednesday, May 3, 2006...........................     1

Statement of Members:
    Cannon, Hon. Chris, a Representative in Congress from the 
      State of Utah..............................................     8
    Herseth, Hon. Stephanie, a Representative in Congress from 
      the State of South Dakota..................................     7
    McMorris, Hon. Cathy, a Representative in Congress from the 
      State of Washington........................................     6
        Prepared statement of....................................     6
    Napolitano, Hon. Grace F., a Representative in Congress from 
      the State of California....................................     4
    Radanovich, Hon. George P., a Representative in Congress from 
      the State of California....................................     1
        Prepared statement of....................................     2
    Udall. Hon. Tom, a Representative in Congress from the State 
      of New Mexico, Prepared statement of.......................     5
    Walden, Hon. Greg, a Representative in Congress from the 
      State of Oregon............................................     3
        Prepared statement of....................................     4

Statement of Witnesses:
    Albrecht, Carl, CEO, Garkane Energy Cooperative, Inc., Loa, 
      Utah.......................................................    19
        Prepared statement of....................................    20
    Blair, Bobby, Chief Executive Officer, San Miguel Power 
      Association, Ridgeway, Colorado (also representing Tri-
      State Generation and Transmission Association, Inc.).......    12
        Prepared statement of....................................    14
    Eldrige, Steven, General Manager and CEO, Umatilla Electric 
      Cooperative, Hermiston, Oregon.............................     9
        Prepared statement of....................................    11
    Holtrop, Joel, Deputy Chief, National Forest System, U.S. 
      Department of Agriculture, Washington, D.C.................    44
        Prepared statement of....................................    46
    Hutt, Dan, General Manager and Executive Vice President, 
      Black Hills Electric Cooperative, Inc., Custer, South 
      Dakota.....................................................    16
        Prepared statement of....................................    17
    Neal, Michael, Manager of Forestry and Special Programs, 
      Arizona Public Service, Glendale, Arizona (also 
      representing the Edison Electric Institute)................    22
        Prepared statement of....................................    24


 JOINT OVERSIGHT HEARING ON ``THE NEED FOR PROPER FOREST MANAGEMENT ON 
     FEDERAL RIGHTS-OF-WAY TO ENSURE RELIABLE ELECTRICITY SERVICE''

                              ----------                              


                         Wednesday, May 3, 2006

                     U.S. House of Representatives

            Subcommittee on Water and Power, joint with the

               Subcommittee on Forests and Forest Health

                         Committee on Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:05 a.m. in 
Room 1334, Longworth House Office Building, Hon. George 
Radanovich [Chairman of the Subcommittee] presiding.
    Present: Representatives Radanovich, Walden, Napolitano, 
McMorris, Tom Udall, Grijalva, Herseth and Cannon.

 STATEMENT OF THE HON. GEORGE RADANOVICH, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Radanovich. Good morning. Welcome to the Subcommittees 
on Water and Power and Forests and Forest Health.
    We are meeting here today to hear testimony on the need for 
proper forest management on Federal rights-of-way to ensure 
reliable electricity service.
    Today the Water and Power Subcommittee joins the Forests 
and Forest Health Subcommittee to examine how we can ensure 
forest health and provide electricity reliability. Those 
matters may seem unrelated to each other if you do live on the 
Atlantic coast, but for those of us who have Federal forests in 
our western backyards, they go hand in hand.
    For too long many of us throughout the West have watched 
our forests deteriorate into a gas can waiting to explode. 
Improperly maintained electricity rights-of-way on our Federal 
lands is a prime example of what is going wrong. In fact, twice 
in 1996, Federal trees fell on power lines, causing fires and 
electricity outages for almost 10 million people in the West.
    The picture here, which we have right there, taken in the 
Black Hills National Forest is a clear example of why we need 
to improve our electricity rights-of-way. Many of you may not 
be able to see that picture, but if you can, you still can't 
see the power pole that is in that right-of-way because it is 
so clogged by growing trees within the right-of-way. There it 
is; thank you, sir.
    Ten years later, rural communities still live in fear 
because of potential forest fires caused by inadequately 
maintained rights-of-way. At the same time electricity 
consumers have asked for and deserve reliable power supplies, 
especially after the 2003 Northeast Blackout.
    As the Water and Power Subcommittee has witnessed, our 
electricity supply and delivery system hangs in a precarious 
balance that is only exacerbated by improperly maintained 
rights-of-way.
    As a member of the Energy and Commerce Committee, I can 
also tell you how susceptible our national electricity grid is 
to mishaps. While the situation is not acceptable, it is 
getting better.
    Last year Congress passed long-awaited national reliability 
provisions that included expedited vegetative management. In 
addition, the Forest Service and other Federal agencies are 
beginning to see why it is important to have uniform, 
consistent and timely management policies on our rights-of-way. 
But the agencies have a long way to go.
    Time will only tell if they follow the right course to 
enhance our electricity reliability, reduce fire hazards, and 
protect the public from unacceptable risks and liabilities. 
This hearing is a step toward those win-win solutions.
    In closing, I want to thank very much the Forests and 
Forest Health Subcommittee Chairman Walden for his leadership 
on this issue. And I also want to welcome today's witnesses and 
audience members who are representing the rural electric 
cooperatives. You have all traveled great distances to be here 
and participate in this important hearing, and I do appreciate 
that.
    I thank you for being here. I look forward to working with 
you and my colleagues on this issue.
    I now recognize Representative Walden, the Chairman of the 
Forests and Forest Health Subcommittee, for his opening 
statement. Greg.
    [The prepared statement of Mr. Radanovich follows:]

        Statement of The Honorable George Radanovich, Chairman, 
                    Subcommittee on Water and Power

    Today, the Water and Power Subcommittee joins the Forests and 
Forest Health Subcommittee to examine how we can ensure forest health 
and provide electricity reliability. Those matters may seem unrelated 
to each other if you live on the Atlantic Coast. But, for those who 
have federal forests in our western backyards, they go hand-in- hand.
    For too long, many of us throughout the West have watched our 
forests deteriorate into a gas can waiting to explode. Improperly 
maintained electricity rights-of- way on our federal lands is a prime 
example of what's gone wrong. In fact, twice in 1996, federal trees 
fell on power lines, causing fires and electricity outages for almost 
ten million people in the West. This picture, taken in the Black Hills 
National Forest is a clear example of why we need to improve our 
electricity. Ten years later, rural communities live in fear because of 
potential forest fires caused by inadequately maintained rights-of-way.
    At the same time, electricity consumers have asked for and deserve 
reliable power supplies, especially after the 2003 Northeast Blackout. 
As the Water and Power Subcommittee has witnessed, our electricity 
supply and delivery system hangs in a precarious balance that's only 
exacerbated by improperly maintained rights-of-way. As a member of the 
Energy and Commerce Committee, I can also tell you how susceptible our 
national electricity grid is to mishaps.
    While the situation is not acceptable, it's getting better. Last 
year, Congress passed long-awaited national reliability provisions that 
include expedited vegetative management. In addition, the Forest 
Service and other federal agencies are beginning to see why it's 
important to have uniform, consistent and timely management policies on 
our rights-of-way. But, the agencies have a long way to go. Time will 
only tell if they follow the right course to enhance our electricity 
reliability, reduce fire hazards and protect the public from 
unacceptable risks and liabilities. This hearing is a step towards 
those win-win solutions.
    In closing, I want to thank Forests and Forest Health Chairman 
Walden for his leadership on this issue. I also want to welcome today's 
witnesses and audience members representing the rural electric 
cooperatives. You have all traveled great distances to be here and to 
participate in this important hearing. I thank you for being here and 
look forward to working with you and my colleagues on this issue.
                                 ______
                                 

STATEMENT OF THE HON. GREG WALDEN, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF OREGON

    Mr. Walden. Thank you very much, Mr. Chairman. The basic 
issue at hand today is one of simple fairness. Those utility 
operators that follow the rules, that comply with their 
contractual obligations, that do the allowed and appropriate 
vegetative management within the rights-of-way should not be 
held responsible for firefighting costs incurred through no 
fault of their own.
    In cases where utility operators are actually prevented 
from doing necessary maintenance, where they are not allowed to 
remove trees and snags that can ignite fires, liability should 
not even be a consideration.
    Yet the fact that we are having this hearing today shows 
the basic issues of fairness are often not reflected in actual 
practice and policy.
    One example, the problem incurred near my home when, in 
2003, a tree on Federal land fell on the City of Cascade Locks' 
power line, creating a 360-acre wildfire, and leading to a 
subsequent bill for $312,000 being charged to the City for 
firefighting costs.
    Had the City not done appropriate and agreed-to vegetative 
management, one could argue the Forest Service should have held 
the City liable, but this wasn't the case. All parties agreed 
the City regularly trimmed trees and limbs adequately and 
properly within the right-of-way. That case is still pending. 
If it is not resolved equitably, city residents will have to 
foot the bill for a fire they did not cause and cannot afford, 
and this is simply unfair.
    This case and numerous others demonstrate a clear need to 
develop uniform and consistent policies concerning the proper 
management of electricity rights-of-way so that vegetation can 
be managed in a timely manner, and liability can be shared 
fairly and equitably.
    I am glad to report that some progress is being made in 
this regard with a national memorandum of understanding being 
developed between the Forest Service and trade associations 
representing electric utilities. In addition, I have had 
personal discussions with representatives of the Forest Service 
who have expressed their commitment to working with Congress 
and the utilities in finding resolution to these important 
issues.
    I look forward to the hearing today and hearing from all of 
our witnesses. I appreciate your coming today to help us better 
understand these issues. And I would like to thank the Water 
and Power Chairman, Mr. Radanovich, for his time and work on 
these crucial issues.
    Thank you, Mr. Chairman. We look forward to your witnesses.
    [The prepared statement of Mr. Walden follows:]

           Statement of The Honorable Greg Walden, Chairman, 
               Subcommittee on Forests and Forest Health

    The basic issue at hand today is one of simple fairness. Those 
utility operators that follow the rules, that comply with their 
contractual obligations and that do the allowed and appropriate 
vegetative management within right-of-way corridors, should not be held 
responsible for fire fighting costs incurred through no fault of their 
own. In cases where utility operators are actually prevented from doing 
necessary maintenance, where they're not allowed to remove trees and 
snags that can ignite fires, liability should not even be a 
consideration---yet, the fact that we're having this hearing today, 
shows that basic issues of fairness are often not reflected in actual 
practice and policy.
    One example of the problem occurred near my home, when in 2003, a 
tree on federal land fell on the City of Cascade Locks' power line, 
creating a 360 acre wildfire and leading to a subsequent bill for 
$312,000 being charged to the City for fire fighting. Had the City not 
done appropriate and agreed vegetative management, one can argue that 
the Forest Service should have held the City liable--but this was not 
the case; all parties agreed that the City regularly trimmed trees and 
limbs adequately and properly within their right-of-way. This case is 
still pending. If it is not resolved equitably, city residents will 
have to foot the bill for a fire they did not cause and cannot afford--
this is simply unfair.
    This case and numerous others demonstrate a clear need to develop 
uniform and consistent policies concerning the proper management of 
electricity right-of-ways, so that vegetation can be managed in a 
timely manner and liability can be shared fairly and equitably. I'm 
glad to report that some progress is being made in this regard, with a 
national memorandum of understanding being developed between the Forest 
Service and trade associations representing electric utilities. In 
addition, I've had personal discussions with representatives of the 
Forest Service who have expressed their commitment to working with 
Congress and the utilities in finding resolution to these important 
issues.
    I look forward to hearing from all our witnesses today, in hope 
that we can work together to effectively address this topic in a 
positive way. And I'd like to thank Water and Power Chairman, 
Radanovich, for his time and work on these crucial matters.
                                 ______
                                 
    Mr. Radanovich. Thank you so much, Greg. I will now turn to 
the Ranking Members of the two subcommittees for their opening 
statements.
    I first recognize the Ranking Member of our Water and Power 
Subcommittee, Mrs. Grace Napolitano. Grace.

  STATEMENT OF THE HON. GRACE NAPOLITANO, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Napolitano. Thank you, Chairman Radanovich and Chairman 
Walden. And I was just thinking of what you were saying about 
the clear need to develop uniform, consistent policies. But 
what about the budget to be able to carry them out, Greg? I 
mean, when you said that, that was something that really 
triggered in my mind, because it isn't just getting a total, 
consistent policy development across the nation, but the 
ability for the Forest Service to have the funding to be able 
to carry it through. I am sorry, it is just one of those things 
that hit me as I was listening to you.
    Mr. Chairman, both Chairmen, thank you so very much for 
holding this hearing. But as I was reading the testimony 
presented to us, and as I prepared for this morning's hearing, 
I was not only frustrated, but I was wondering why this hearing 
is needed. After all, electric utilities and rural cooperatives 
have been installing and maintaining many thousands of miles of 
power distribution lines for decades.
    Can it be true that the Forest Service and other agencies 
make it so difficult and expensive to maintain these critical 
power lines? Everybody loses when there is a power failure.
    When the power is out, people's lives are in danger. We 
lose control of the technology that makes our society function. 
And we also try to protect our cities with expensive flood 
control systems, we spend billions to secure airports with 
fancy scanners and other technology, yet our critical electric 
grid is threatened by dead trees.
    I very much look forward to hearing more about the 
vegetation management along these utility corridors, and how we 
can make them work better, and possibly to explore additional 
information to create better use of discarded dead trees. I 
certainly am looking forward to the testimony, Mr. Chair.
    Mr. Udall is delayed. He will submit his statement for the 
record.
    [The prepared statement of Mr. Tom Udall follows:]

Statement of The Honorable Tom Udall, a Representative in Congress from 
                        the State of New Mexico

    Thank you, Mr. Chairman. I would like to welcome witnesses from the 
National Rural Electric Cooperative Association, who are in Washington, 
DC for their Annual Legislative Conference this week. I also note that 
this is the fifth hearing this Congress held in conjunction with a 
lobby week for the Forests and Forest Health Subcommittee.
    For many electric cooperatives and utilities, tree contact with 
power lines is a leading cause of power outages and can cause wildland 
fire. For example, the Federal Energy Regulatory Commission concluded 
that the August, 14, 2003 blackout in the Northeastern United States 
was due to overgrown trees interfering with power lines.
    I look forward to hearing more from the Forest Service about their 
communication with the electric cooperatives and utilities, and where 
there is room for improvement in communication systems. Some of the 
concerns that we hear on this issue have to do with inconsistency and 
vagueness of regulation. It appears that the Forest Service needs to 
improve communication and provide for consistent guidelines dealing 
with rights-of-way.
    Furthermore, I note that this is in large part a budgetary issue, 
and a question of priorities of this Administration. There is much that 
can be said about this year's Forest Service budget--from selling our 
public lands to dramatic cuts in important programs. Yet, this 
Subcommittee did not hold an oversight hearing on the Forest Service 
budget this year.
    Several witnesses raise concerns about the threat of wildland fire 
from power lines. While the Forest Service claims thinning forests to 
prevent wildland fire is a key priority, this Administration 
continually funds hazardous fuels reduction far below what was 
Congressionally authorized. This year's combined Agency request for 
hazardous fuels reduction is roughly 491 million, far below the 760 
million that was authorized under the Healthy Forests Restoration Act 
of 2003.
    Many of these power lines are connected not only through our 
Federal lands, but also through state and private lands. Unfortunately, 
this Administration has also underfunded important Forest Service 
programs intended to encourage cooperation with state and private 
entities. This year's budget request includes a significant cut to 
State and Private Forestry, including the budget for State Fire 
Assistance. I commend Ranking Member Rahall for his request for 
increased funding of State Fire Assistance.
    Thank you, Chairman Walden. I look forward to hearing from our 
witnesses today.
                                 ______
                                 
    Mr. Radanovich. Thank you, Mrs. Napolitano. And next I 
recognize Ms. McMorris for any opening statement.

   STATEMENT OF THE HON. CATHY McMORRIS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF WASHINGTON

    Ms. McMorris. Thank you, Mr. Chairman. I join my colleagues 
in welcoming today's witnesses and members of the rural 
electric cooperatives here with us today.
    Today's focus on bringing Federal government's vegetation 
management policies into the 21st century is much-needed. Rural 
communities in my district live in fear if devastating 
wildfires because their Federal neighbors haven't done their 
part to remove the dead and dying trees and brush that feed 
catastrophic wildfires. This literally adds fuel to the fire.
    For example, last year's School fire in my district burned 
nearly 52,000 acres in eastern Washington, over half of which 
is managed by the Umatilla National Forest. The fire was 
started by a dead pine tree falling over 14,000-volt power 
lines on Department of Natural Resources land protected lands, 
causing the lines to arc and sending sparks to the ground, 
igniting grasses.
    Meanwhile, the promise of low-cost hydropower and reliable 
transmission in the Pacific Northwest is constantly being 
compromised because of misguided notions from the 
Administration's Office of Management and Budget and Federal 
land management agencies. The problem is clear. In many areas 
there hasn't been proper maintenance of electric utility right-
of-ways. This threatens our forests, and it threatens our 
communities.
    We all recognize the problem, but the red tape and 
bureaucratic process that is currently attempting to deal with 
the problem is currently not working. The time for improving 
the situation is now.
    Chairman Radanovich was right when he said that the 
agencies are getting better, but we can do more, and faster. 
Faced with the need for a safe community and reliable grid, the 
agencies can either be a part of the problem or a part of the 
solution. They can either really empower utilities to clear 
rights-of-way, or they can be a deterrent that ultimately leads 
to more environmental destruction and electricity blackouts.
    I am convinced that the agencies are taking steps, but they 
must take bigger and bolder steps to seize the moment in this 
time of need. That is what this hearing is about.
    We are joined by distinguished witnesses who have a direct 
understanding of why this hearing is being held, and know 
first-hand of the changes that need to take place. They are 
true leaders in the field.
    I commend Chairmen Radanovich and Walden for holding this 
important hearing and look forward to hearing from today's 
witnesses.
    [The prepared statement of Ms. McMorris follows:]

Statement of The Honorable Cathy McMorris, a Representative in Congress 
                      from the State of Washington

    I join my colleagues in welcoming today's witnesses and members of 
the rural electric cooperatives here with us today. Your participation 
and attendance in today's hearing is true democracy in action.
    Today's focus on bringing the federal government's vegetative 
management policies into the 21st century is much-needed. Rural 
communities in my district live in fear of devastating wildfires 
because their federal neighbors haven't done their part to remove the 
dead and dying trees and brush that feed catastrophic wildfires--this 
literally adds fuel to the fire.
    Meanwhile, the promise of low-cost hydropower and reliable 
transmission in the Pacific Northwest is constantly being compromised 
because of misguided notions from the Administration's Office of 
Management and Budget and federal land management agencies. The problem 
is clear: in many areas there hasn't been proper maintenance of 
electric utility right of ways. This threatens our forests and it 
threatens our communities. We all recognize the problem, but the red-
tape and bureaucratic process that is currently attempting to deal with 
the problem is clearly not working.
    The time for improving this situation is now. Chairman Radanovich 
was right when he said that the agencies are getting better, but we can 
do more--and faster. Faced with the need for a safe community and a 
reliable grid, the agencies can either be part of the problem or part 
of the solution. They can either really empower utilities to clear 
rights-of-way or they can be the deterrent that ultimately leads to 
more environmental destruction and electricity blackouts. I'm convinced 
that the agencies are taking steps, but they must take bigger and 
bolder steps to seize the moment in this time of need. That's what this 
hearing is all about.
    We are joined by distinguished witnesses who have a direct 
understanding of why this hearing is being held and know firsthand of 
the changes that need to take place. They are true leaders in their 
fields. I commend Chairman Radanovich and Walden for holding this 
important hearing and look forward to hearing from today's witnesses.
                                 ______
                                 
    Mr. Radanovich. Thank you, Ms. McMorris. We are now joined 
by the Ranking Member of the Forests and Forest Health 
Subcommittee, Mr. Udall. Good morning, Tom.
    Mr. Udall of New Mexico. Thank you, Mr. Chairman. Good to 
be with you this morning.
    Mr. Radanovich. Thank you. And I understand, Mr. Grijalva, 
you have no opening statement, OK?
    Mr. Grijalva. Right.
    Mr. Radanovich. Ms. Herseth?

 STATEMENT OF THE HON. STEPHANIE HERSETH, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF SOUTH DAKOTA

    Ms. Herseth. Yes, just a brief opening statement. Thank 
you, Mr. Chairman, and to Chairman Walden, as well as to our 
Ranking Members, Grace Napolitano and Tom Udall, for holding 
this hearing on a very important topic.
    And thank you, Mr. Chairman, for having the insight of 
having a South Dakotan on our panel today. I know you have 
family in the southern hills, and I am sure that they have 
brought up a number of these issues with you. I also want to 
thank you for sharing some of the photos here of the beautiful 
Black Hills National Forest.
    We can talk about this issue throughout the day, and we 
will be hearing from our witnesses shortly. But I think that 
when you look at the images we have here are, for part of the 
record today I mean it clearly illustrates the problem that we 
are here to discuss.
    First let me say that it is my great pleasure to welcome 
and introduce a particular member on our witness panel today, 
Dan Hutt. Dan has been an active member in the cooperative 
community in rural electricity issues in South Dakota for his 
entire professional career. He has been the Manager of the 
Black Hills Electric Cooperative in Custer, South Dakota for 
the past 11 years, and he has been employed with that 
cooperative for more than 27 years.
    He began his career there as a work order clerk, and has 
worked his way to his current position through hard work and 
leadership. Dan truly has a lifetime of experience on these 
issues, and I know he will provide invaluable insight on the 
issues we are discussing today.
    Dan attended the Forestry Subcommittee hearing that Mr. 
Walden and I hosted in South Dakota last August, and he raised 
this particular issue with us then. And we used that 
opportunity to seek a meeting for Dan and other similarly 
situated co-ops with the supervisor of the Black Hills National 
Forest. I know that that meeting occurred, and I am anxious to 
hear the latest on the interaction with the Forest Service 
personnel in the Black Hills.
    The Black Hills Electric Cooperative operates extensively 
throughout the Black Hills National Forest, a national forest 
with some of the most extensive private holdings of any in the 
national forest system. As such, Black Hills Electric has a 
long history of dealing with the Forest Service on right-of-way 
matters. In fact, as Dan will tell you in his testimony, his 
cooperative has over 1,000 miles of transmission and 
distribution lines in the Black Hills National Forest.
    Because of his tremendous experience on this issue, I am 
looking forward to his testimony, and commit it to my 
colleagues. I feel these issues that we are here to discuss 
need to be addressed for a variety of reasons, not the least of 
which is public safety. So I thank you again for holding the 
hearing, and yield back.
    Thank you, Mr. Chairman.
    Mr. Radanovich. Thank you so much, Ms. Herseth.
    Mr. Cannon joins us from Utah. Mr. Cannon, did you have any 
opening statement?

    STATEMENT OF THE HON. CHRIS CANNON, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF UTAH

    Mr. Cannon. Thank you, Mr. Chairman. I appreciate you 
holding this hearing, and I would like to just extend my thanks 
to Carl Albrecht for being out there with us today. Carl has 
been a good friend for a long time and is faced now with a 
problem of a relatively short right-of-way that goes over 
several forms of Federal land and also public and state land 
and is being held up by the very difficult process that we are 
addressing. So I want to thank Carl for being here, and thank 
you for holding this hearing. And I yield back.
    Mr. Radanovich. Thank you, Mr. Cannon. Mr. Walden.
    Mr. Walden. Thank you, Mr. Chairman. I, too, want to 
welcome a witness: Steve Eldrige from Umatilla Electric Co-op. 
Steve has been a real leader throughout the Northwest on energy 
issues, and I think you are going to be intrigued by his 
testimony today on this one, as well. We appreciate Steve 
making the trek out here.
    So thank you for being here, Steve.
    Mr. Radanovich. Thank you, Mr. Walden. With that I will 
introduce our first panel.
    Mr. Steve Eldrige, General Manager of the Umatilla Electric 
Cooperative; Mr. Bobby Blair, Chief Executive Officer of the 
San Miguel Power Association, Ridgeway, Colorado; Mr. Dan Hutt, 
General Manager of the Black Hills Electric Cooperative in 
Custer, South Dakota; and Mr. Carl Albrecht, the General 
Manager of the Garkane Energy Cooperative in Loa, Utah. And 
also Mr. Michael Neal, the Manager of Forestry and Special 
Programs in the Arizona Public Service in Glendale, Arizona.
    Gentleman, welcome to the Subcommittee. And the way this 
works is you have all got five minutes to give your testimony. 
Feel free to be extemporaneous because your full written 
testimony is in the record already. And if you would abide by 
the five-minute rule, that would be great. These clocks are set 
to show that at five minutes. So after that we will open up for 
questions from Members on the dais here.
    So Mr. Eldrige, welcome to the Subcommittee. And why don't 
you begin, and we will go right down the line.

STATEMENT OF STEVEN ELDRIGE, GENERAL MANAGER, UMATILLA ELECTRIC 
                 COOPERATIVE, HERMISTON, OREGON

    Mr. Eldrige. Umatilla Electric Cooperative is located about 
100 miles up the Columbia River from Portland, Oregon. We have 
2,500 square miles of service area, a little over 9,000 
members, 2,100 miles of power line, mostly overhead lines, 
about 500 miles of underground line. We average six customers 
per mile of line.
    The portion of our service area that we want to address 
specifically today is in the Umatilla National Forest, in the 
Blue Mountains. In this area is where a lot of co-ops ended up 
serving because no one else would; very difficult terrain, 
extreme weather conditions, scattered electric customers, and 
Federal land, both U.S. Forest Service and Tribal lands.
    And in these mountainous areas, we have four customers per 
mile, about $4,200 a year in annual revenue per mile of line, 
and about an $8 million investment in today's dollars.
    We have 141 miles on the Confederated Tribes Umatilla 
Indian Reservation. And with the Confederated Tribes, we have a 
very good relationship with them. We pay a fee that is very 
reasonable to cross their lands. Many of the tribal members are 
long-time members of Umatilla Electric, and we just seem to be 
able to work through the issues that come up.
    When the Bureau of Indian Affairs are involved, it gets 
much more complicated and takes a much longer time. But if it 
is an issue that local people can deal with, we invariably will 
settle it.
    Now, as I said, we have Umatilla National Forest to deal 
with, too. And in our experience there, as well, when the 
District Ranger has the authority to deal with the issues as 
they come up, we have pretty good success. I visited with him, 
and I sensed that he was quite frustrated with not having the 
latitude that he felt was reasonable. And he expressed some of 
the issues that are coming our way. And we have a great concern 
about new processes that are being done without our input, and 
also the issue of strict liability.
    So let us begin with the current regulations. Any ground-
disturbing activity is subject to an environmental review, and 
ground disturbance can be a shovel full of dirt on. The 
required environmental review determines if the action is 
allowed or if there is an adverse effect to the environment or 
habitat. If the latter is found, then you have to comply with 
the Endangered Species Act, the National Environmental Policy 
Act, the Historical Preservation Act, and other Federal 
statutes.
    And I looked at the NEPA law, I hadn't looked at it for a 
long time. If you wanted to, you could read that it was an 
environmental event if you walked in the forest. And I think 
one of the problems we have is that there is not enough 
definition to what is actually required, or are the goals clear 
of what the Forest Service wants.
    So if you would have an environmental effect, you have to 
have an approval by a botanist, a fish biologist, and a 
wildlife biologist from known fisheries and the U.S. Fish and 
Wildlife Service. Compliance with the Historical Preservation 
Act requires approval by an archaeologist. And if it is on 
tribal land or a potential tribal impact, then tribal 
representation is required.
    And then if we are in a visually sensitive area, the Forest 
Service can require virtually whatever they wish to if they 
make that designation.
    So each quarter the U.S. Forest Service lists all of the 
proposed activities on U.S. Forest ground. It also is listed 
publicly, but it also is sent out to an extensive list of 
interested parties.
    Anybody can comment on the scheduled activities. They can 
request public hearings, they can recommend specific actions. 
And as we speak, I will give some examples of things.
    In Central Oregon, which some of you may know is the new 
urban area in Oregon--a lot of very wealthy people live there, 
it is very scenic and so on--Mid-State Electric Co-op has an 
approved U.S. Forest Service trim line on a piece of land. A 
developer requested that they straighten this line and move it 
a quarter of a mile from its current location. They have been 
two years waiting for that approval. Straightening the line 
would actually lessen the impact on forest land because dies 
and so on would be lessened.
    In Central Oregon you have to give three- to five-year 
notice. In Western Oregon, a timber sale was arranged with 
local officials. People from Washington, D.C. canceled the sale 
after everything was arranged.
    The U.S. Forest Service developed a forest watershed plan 
on Ditch Creek and recommended that the only road in this area 
be closed, and it was a road that Consumers Power used to 
maintain a line that had been there since 1948. Consumers 
contacted the Forest Service, requested an appointment, sent in 
comments. They were assured they would have a meeting. Then 
they got a letter that the plan had been implemented because 
the U.S. Forest Service had determined that in consumers 
permit, they were not prevented from closing the road, so it 
just went and did so.
    In our own case, on Weston Mountain, we had to move a pole 
because it was interfering with a ski lift. And we were told 
that this would be a significant event. And we couldn't 
understand why digging a pole hole 18 inches wide and six feet 
deep was a significant environmental event.
    And they said the reason is that a mile down the hill is 
Looking Glass Creek which runs 11 miles into the Ground Round 
River, and in the Ground Round River are listed salmon. 
Therefore, it is a significant environmental event. And after a 
year of effort, the local ranger finally allowed us to do it, 
and of course, with equipment, we disturbed the ground at about 
a 100-foot radius. But we stabilized it, we planted it. No dirt 
left the area.
    Any of you who have been in the forest know there is a lot 
of bare ground, and not just digging pole holes will cause 
that. So Representative Walden, Chairman Walden covered the 
strict liability, and he is right on the mark. We have a danger 
pole that we told the U.S. Forest Service about in July. We 
still don't have permission to remove it. It could hit a line 
if it fell on its own in the prevailing winds.
    So we don't have an ability to limit our exposure, but we 
are strictly liable up to $1 million. And then beyond that, 
normal negligence applies. What I think is needed is open 
dialogue and collaboration with utilities, the U.S. Forest 
Service to help us to understand what they are trying to 
achieve, and then put actual standards in the agreement.
    That concludes my remarks. Thank you.
    [The prepared statement of Mr. Eldrige follows:]

     Statement of The Honorable M. Steven Eldrige, General Manager 
                 and CEO, Umatilla Electric Cooperative

Introduction:
    Steve Eldrige has been the General Manager and CEO of Umatilla 
Electric Cooperative (UEC) since December of 1990 and has over 34 years 
of electric utility experience. Steve is currently Chairman of the 
Governor's Oregon Rural Policy Advisory Committee, Eastern Oregon 
Telecom, LLC, and the Oregon Rural Electric Cooperative Association 
Government Affairs Committee. He serves on the Boards of Pacific 
Northwest Generating Cooperative and the Good Shepherd Hospital Board 
of Trustees. Steve also represents UEC on the Bonneville Power 
Administration Power Function Review Committee and the Tri-Cities/
Hermiston Group.
Testimony:
    Umatilla Electric Cooperative's (UEC) service area is in North 
Eastern Oregon, approximately 200 miles east of Portland, Oregon along 
the Columbia River. Our service area continues East, around the towns 
of Hermiston and Pendleton into the Blue Mountains towards La Grande 
and Union. UEC serves about 2,500 square miles, has 9,500 members along 
2,100 miles of power lines--mostly overhead lines, but also 540 miles 
of buried power lines.
    The portion of our service area we wish to address today resides in 
the Blue Mountains. This area epitomizes areas in which electric 
cooperatives were created to serve--very difficult terrain, extreme 
weather conditions, scattered electric customers, and Federal land 
lines both U.S. Forest Service and Tribal. In UEC's case, there are 
approximately four year-round customers per mile of line who provide 
$4,200 per mile in annual revenue, with an investment of $8,000,000 in 
today's dollars.
    UEC has 141 miles of primary line on the Confederated Tribe of the 
Umatilla Indian Reservation near Pendleton, Oregon. We have a very good 
relationship with the Confederated Tribes. We pay annual fees to serve 
on their lands and have been able to work through land use issues 
satisfactorily. Many of the Tribal members are also long time members 
of UEC. It just seems when a problem arises between local people and 
local people have the authority to resolve the issue, we usually 
quickly resolve the matter.
    On the other hand, we have the U.S. Forest Service for Umatilla 
National Forests. In our experience, when the District Ranger is given 
sufficient authority to resolve issues, we usually are able to within a 
reasonable amount of time. We have growing concern over existing and 
planned regulations and great concern over the Strict Liability clause 
in U.S. Forest Service rights-of-way permits.
    Let's begin with current regulations. Any ``ground disturbing'' 
activity is subject to an environmental review--ground disturbance is a 
shovel full of dirt or more. The required environmental review 
determines if the action is allowed or if there is ``adverse effect to 
the environment or habitat''. If the latter is found, then provisions 
of the Endangered Species Act and Historical Preservation Act among 
other federal statutes must be met. Compliance with the Endangered 
Species Act requires approval by a botanist, and both a fish biologist 
and a wildlife biologist from both the NOAA Fisheries and U.S. Fish & 
Wildlife. Compliance with the Historical Preservation Act requires 
approval by an archeologist which can include Tribal representation. 
Additionally, if the activity is in a ``visually sensitive'' area, 
accommodation as determined by the U.S. Forest Service will be 
required.
    Each quarter the U.S. Forest Service publishes all proposed 
activities scheduled to take place in the U.S. Forest Service. This 
list of proposed activities is also sent to a substantial list of 
interested parties. Anyone can comment on scheduled activities; request 
pubic hearings; or recommend specific actions. As we speak, a 
transmission line in Central Oregon is being upgraded with a requested 
move < mile from its current location. The current location has a valid 
U.S. Forest Service easement. The proposed move has been two years in 
process. The U.S. Forest Service and Bureau of Land Management require 
three to five years advance notice for proposed activities. In Western 
Oregon a timber sales project was arranged with local U.S. Forest 
Service to clear rights-of-way along a power line, but just before the 
sale took place, out of region U.S. Forest Service officials 
unilaterally cancelled the sale. This action places the power line in 
jeopardy and reduces public safety.
    In our own service area, UEC had to move a single power pole to 
remove a potential hazard to skiers on Weston Mountain--the process 
took over a year to complete. The explanation we were given is that 
digging a hole in the ground for a power pole may have an adverse 
affect on the environment and habitat. We asked how removal of less 
than four cubic feet of dirt could be significant. The response was 
that Looking Glass Creek was down hill from this proposed power pole; 
Looking Glass Creek drains into the Grande Ronde River; and the Grande 
Ronde has endangered salmon. Although the District Ranger finally 
allowed the pole to be moved, it took over a year to get the approval 
simply because there was a remote possibility that the dirt from a hole 
six feet deep and 18'' wide might travel one mile down hill into 
Looking Glass Creek then eleven miles down stream into the Grande Ronde 
River which does contain listed salmon.
    UEC has a Special U.S.E. Permit with the U.S. Department of 
Agriculture Forest Service which expires December 31, 2006. This permit 
specifies that UEC is strictly liable for up to $1M and liable under 
the general laws of negligence for amounts greater than $1M. Our permit 
specifies what we are authorized to maintain, a right of way ten feet 
for buried lines and a right way of thirty feet wide for overhead 
lines. Any activities beyond this must be pre-approved in writing from 
the U.S. Forest Service unless an emergency exists, which can be dealt 
with, then, within 48 hours we are required to notify the U.S. Forest 
Service and hope for forgiveness.
    Recently, we identified a dead danger tree more than 30 feet from 
our overhead power line with a request for permission to fall the tree 
because if it falls on its own with the prevailing winds it can, and 
probably will, contact our power line. We've been waiting since last 
July, 2005, for permission to remove this danger tree. (When a tree 
contacts a power line, sparks can result). So, we are subject to strict 
liability, but cannot limit sufficiently our exposure because we cannot 
act unless such action is pre-approved, in writing, by the U.S. Forest 
Service.
    What is to be done? First of all, the Forest Service Special USE 
Permit must be re-written in consultation with the affected utility 
companies. If the U.S. Forest Service will be transparent about its 
goal and accommodating with utility owners, the public we both were 
created to serve will benefit.
    Why is strict liability contained in our Special SE Permit? Unless 
there is a certainty that UEC will refuse to cover acts or omissions 
for which it is liable, the strict liability clause must be removed.
    Thank you, Mr. Chairman, for giving me the opportunity to testify 
on an issue of such importance to the member-owners of Umatilla 
Electric Cooperative. I'd be happy to answer any questions you might 
have.
                                 ______
                                 
    Mr. Radanovich. Thank you, Mr. Eldrige, for your testimony. 
Now, next is Mr. Bobby Blair of the San Miguel Power 
Association.

 STATEMENT OF BOBBY BLAIR, CHIEF EXECUTIVE OFFICER, SAN MIGUEL 
             POWER ASSOCIATION, RIDGEWAY, COLORADO

    Mr. Blair. Thank you, Mr. Chairman. My name is Bobby Blair; 
I am the CEO of San Miguel Power Association Rural Electric 
Cooperative in the Rocky Mountains of Southwest Colorado. I 
also represent Tri-State Generation and Transmission 
Association. Tri-State is a generation of transmission 
cooperative owned and serving 44 rural electric cooperatives in 
Colorado, Wyoming, Nebraska, and New Mexico. I am also on the 
Executive Committee for Colorado Rural Electric Managers' 
Association.
    San Miguel Power Association serves approximately 12,000 
meters, with a customer density of 6.6 consumers per mile of 
line. Included in the seven counties that we serve in the San 
Juan, the Uncompahgre, the Rio Grande, the Gunnison National 
Forests also are thousands of acres of BLM land.
    Our biggest problem that we have in dealing with the 
Federal agencies, being the BLM and the Forest Service 
primarily, are the inconsistencies that we deal with in the 
field. They seem to be understaffed. Before we can clear our 
right-of-ways, we have to have approval and identify trees to 
clear. These trees, when we are allowed to go in and do 
trimming, they are very narrow in scope. They want pruning done 
instead of tree removal done. Many of the trees are large pines 
that, if they do fall, they are going to fall on the power 
line.
    We have had several instances in the past several years 
where we have actually started forest fires. Thankfully, they 
have been controlled with small burns and were seen. But 
obviously in our area, it can happen in areas where we would 
not be as fortunate, and a fire would have a large head start 
before it is even identified.
    We have a beetle-kill problem in that area. It has been 
estimated that we will lose 80 percent of the pines in our 
forests to this beetle kill if something isn't done about it. 
These are all becoming tender. And when trees die, they do 
fall. And when they fall, they are going to fall on our power 
lines, because we are not allowed adequate right-of-way 
clearance.
    My colleague was speaking of the botanists and the 
biologists, and we deal with that, as well. And unfortunately, 
our situation is that many times information that we are 
getting is contradictory. It is very expensive to a small, not-
for-profit cooperative that is owned by its consumers.
    In my written testimony you see a couple of examples where 
we get one story from one, and another from another. And 
probably the most prevalent is we were removing an overhead 
power line approximately a mile and a half up the side of a 
mountain to some communication sites that we had not been 
allowed to maintain adequate clearance in that right-of-way 
over the year, and so there was a lot of growth that had 
occurred in that right-of-way.
    We replaced that power line with one that was placed 
underground. We spend approximately $200,000 a year on tree-
trimming alone in our service territory, and we trim trees 12 
months out of the year. So we have a crew in removing the trees 
so that we can place the new power line.
    Part of our requirement in the field, the individual in the 
field required that we remove the timber, and then we pull it 
back into the right-of-way, and place it so that it looks as if 
it had fallen naturally.
    As this is happening, and it took us approximately three 
weeks and I am going to guess somewhere around $30,000 to 
achieve, while this is happening I get a letter from her boss 
asking this for our input as to the best way to remove the 
timber to mitigate the fire danger. And obviously the answer 
was it was out once, let us just keep it out.
    But these are the situations that we run into in the field, 
and they are getting to be more and more common.
    Now, that being said, I do not want to leave the Committee 
with the impression that we have not had favorable dealing with 
any of these agencies, as well. We deal with several. There 
seems to be a tremendous rotation of employees. We may be 
dealing with one person one year who is not there the nest 
year, and that has been an ongoing problem.
    But we do have one particular district that seems to take 
the approach that they want to help us achieve our objective 
within their guidelines.
    And that is a refreshing view when you are dealing with the 
Forest Service, and they come out, and they look for every way 
possible to help you achieve your success and theirs, as well. 
Because it is not the case we seem to run into in a lot of 
areas: personal agendas, personal political views, or personal 
environmental views.
    And I think that the cooperatives as a whole have a very 
good environmental record. We are very conscious about that. We 
are not asking for permission to do what we want, when we want, 
wherever we want; we just need a little bit of process and some 
consistency in dealing. When you go from one managed district 
to another with the same job, because our power lines don't 
end, it requires two permits.
    It is the same project, it is the same forest, but it may 
be a different district, forest district. And so again, you 
start the process, and deal with different people on both 
sides, and start all over again.
    These are some of the frustrations that we deal with, and 
of course the rest is in the written testimony. But I do 
appreciate the opportunity to come and be heard.
    Thank you.
    [The prepared statement of Mr. Blair follows:]

                Statement of The Honorable Bobby Blair, 
         Chief Executive Officer, San Miguel Power Association

    Thank you, Mr. Chairman. I appreciate your giving me the 
opportunity to testify on an issue of great importance to rural 
Coloradans. I am Bobby Blair, the CEO of San Miguel Power Association, 
a rural electric cooperative in the Rocky Mountains of Southwest 
Colorado. I also represent Tri-State Generation and Transmission 
Association. Tri-State is a Generation and Transmission Cooperative 
owned by and serving 44 rural electric cooperatives in Colorado, 
Wyoming, Nebraska, and New Mexico. I am also privileged to serve on the 
executive committee of the Colorado Rural Electric Manager's 
Association
    San Miguel serves about 12,000 meters with a customer density of 
6.6 per mile of line. Included in the 7 counties we serve are the San 
Juan, Uncompahgre, Rio Grande, and Gunnison National Forests. Also 
included are many thousands of acres of federal property belonging to 
the Bureau of Land Management (BLM).
    There are very few locations within our service territory that a 
mile of line can be extended without breaching the boundaries of one of 
these agencies. We deal with three United States Forest Service (USFS) 
and two BLM districts. The permitting process for placing or upgrading 
power line has become a political game in which the rules change at the 
whim of their representative in the field. Many seem to be hard-line 
environmentalists whose personal and political views dictate how our 
job will go. There is little consistency from agency to agency, 
district to district, or even within the same offices. There seems to 
be no standard operating procedure.
    In 2004 we were removing 1.5 miles of old overhead distribution 
line that crossed BLM land and replacing it with an underground line. 
We had never been allowed to properly maintain safe clearances in our 
right-of-way for the overhead line so quite a few trees had grown up 
and had to be removed. After completing the underground job, the BLM 
representative insisted that we place the removed timber back into the 
right-of-way. She wanted it ``placed as though it had fallen 
naturally''. Hauling and arranging timber onto 1.5 miles of freshly 
disturbed wet dirt on the side of a mountain is no easy task. We lost 
weeks and many thousands of dollars to the process. Then came the salt 
in the wound. Just as we were putting the finishing touches on placing 
the timber, I received a letter from the supervisor in her office 
asking for our input on the best way to remove the timber to mitigate 
the fire danger.
    During the winter of 2004 an avalanche knocked down a portion of a 
transmission line that was built in the 1950's in wetlands on USFS 
property. We are relocating the line outside of the wetlands and 
avalanche chute to a service road. This relocation will also greatly 
reduce the visual impact of the line. Obviously we were using the 
service road for access while removing the necessary trees to 
accommodate the new line. A small portion of the road has water flowing 
over it. Over the years people have driven around the source of the 
water which created another segment of road around it. In the field, 
the representative of the Forest Service prohibited us from using the 
loop and ordered that we mitigate the water on the original road 
segment. After spending three weeks and tens of thousands of dollars on 
hauling gravel and dirt and placing a culvert under the road, another 
Forest Service representative visited the site. She said: ``that's a 
natural spring in a bottomless peat bog. Just leave it alone and use 
the loop.'' Shortly after the road situation was dealt with another 
arose. Progress was again stopped by USFS personnel. We were told we 
couldn't continue until a timber sale was held. This came as a surprise 
to us as we had spent months in the permitting process and nothing had 
been mentioned about a timber sale. It was estimated that it would take 
close to 6 weeks to complete the process. Someone would have to come 
and inventory and appraise the timber before it could be marketed. Then 
a sale would be held. When I asked her how much the timber might sell 
for, she replied ``it could go for as much as $2,000''. We were able to 
negotiate to purchase the timber ourselves for $2,400 and our guarantee 
that the timber would be used and not disposed of. The weather in the 
mountains always dictates a limited construction season and this job 
site is at an elevation of approximately 10,000 feet. Our construction 
season was lost to the permitting process and the personal preferences 
of an individual in the field.
    It has been estimated that the forests within our service territory 
will lose up to 80% of the trees to the devastating pine beetle. This 
combined with several years of drought conditions has left the area 
very susceptible to forest fires. Properly cleared and maintained 
rights-of-way can act as natural fire barriers as well as provide 
access for firefighters. Trees contacting power lines in poorly 
maintained rights-of-way will actually become the cause of forest fires 
as we have experienced several times in recent years. The forest 
service does not allow us to trim trees until they have been identified 
by their personnel. Because they are understaffed this process usually 
takes several months to achieve. Once they have been identified our 
tree crews trim as directed by the agencies. Usually the allowed 
trimming is very minimal which causes us to trim each area more 
frequently. San Miguel Power spends in excess of $200,000 a year on 
tree trimming alone. I am not aware of a single location in a heavily 
forested area where we have been allowed proper adequate clearance for 
a power line. The Forest Service and BLM have participated in meetings 
and symposiums to deal with a variety of fire mitigation measures. I 
find attendance very frustrating when the most logical measure would be 
to keep the fuel away from the ignition source.
    To say that we have no favorable dealing with these agencies would 
be misleading. In my opinion one USFS district in particular could 
serve as a model for all others. The Norwood district seems to look for 
ways to help us achieve our objectives while remaining in compliance 
with their rules and regulations. They take a common sense approach to 
their duties and keep their personal preferences and politics out of 
the process.
    The Bush Administration and Congress have been preaching 
reliability and infrastructure to deal with the nations growing energy 
needs. However, it is these same agencies of the federal government 
that are providing the greatest deterrent to achieving their stated 
goals.
    We are not asking for a free pass to build whatever we want 
wherever we want it. We are asking for a streamlined process with 
consistent procedures and requirements. This would go a long way toward 
removing the expensive personal preferences and political views of 
under qualified personnel in the field. It would also relieve some of 
the staffing shortfalls that these agencies are experiencing.
    Thank you, again for holding this hearing of great importance to 
the member-owners of my electric cooperative. I would be happy to 
answer any questions you might have.
                                 ______
                                 
    Mr. Radanovich. Thank you, Mr. Blair. Next is Mr. Dan Hutt 
of the Black Hills Electric Co-op. Welcome to the Subcommittee. 
You may begin your testimony.

 STATEMENT OF DAN HUTT, GENERAL MANAGER, BLACK HILLS ELECTRIC 
               COOPERATIVE, CUSTER, SOUTH DAKOTA

    Mr. Hutt. Thank you, Chairman Radanovich and Chairman 
Walden, Members of the Subcommittee, and a special thank you to 
Representative Herseth for that nice introduction.
    Chairman Walden, I would like to also thank you for 
visiting the Black Hills of South Dakota last August, and for 
holding a Subcommittee hearing there. You have first-hand 
knowledge of the area and some of the challenges we face.
    I appreciate the opportunity to address the Subcommittees 
on Forest Management Practices as they relate to electric 
service. I am a native of the Black Hills with a degree in 
biology and 27 years of experience with electric cooperatives 
serving the area. I have also served on the Bureau of Land 
Management, the Dakotas' Resource Council, and I am currently 
an alternate member of the Black Hills National Forest Advisory 
Board.
    Black Hills Electric Cooperative has approximately 1,000 
miles of transmission and distribution power lines within the 
boundaries of the national forest, with 250 miles of that on 
Black Hills National Forest special-use permits.
    The cooperative provides permanent electric service to 
dozens of national park, national forest, U.S. geological 
survey, and state game, fish, parks facilities. We also provide 
service to fire departments and other emergency responders, 
communications facilities, and fire suppression camps.
    Through the management practices of the past few decades, 
much of the Black Hills National Forest is overpopulated with 
unnaturally dense and unhealthy stands of Ponderosa Pine trees. 
The overcrowded forest conditions and the severe drought of 
recent years have created ideal conditions for unprecedented 
infestations of the mountain pine beetle. The millions of dead 
and dying beetle-infested trees have contributed to the 
already-excessive fuel loads, creating dangerous conditions 
that support large, intensely hot unmanageable wildfires. 
Please refer to the testimony at the Subcommittee's hearing in 
Hill City, South Dakota, in August of 2005 for details of the 
forest conditions.
    The forest conditions have a major impact on the cost and 
reliability of electric service in the cooperative service 
territory. Since 2000, almost 200,000 acres have burned in 
intense wildfires. Black Hills Electric Cooperative sustained 
greater losses in those fires than any other private property 
owner. Miles of power line were completely destroyed, and a 
substation was permanently disabled.
    Falling trees and wildfires have been the single-largest 
cause of power interruptions on the cooperative system over the 
past five years. The cooperative has spent extensive resources 
to combat the danger of beetle-infested trees and other trees 
weakened by decades of forest management practices.
    The cooperative is discouraged from adequate clearing by 
requirements of advance payment at market price for totally 
unmarketable trees cut during right-of-way maintenance. The 
cooperative has a legal obligation to serve all within its 
service territory. With the present forest conditions, the risk 
to provide that service is astronomical. One spark from a 
falling tree, severe winds, or an equipment failure could 
ignite an inferno that would be devastating to Black Hills 
communities and for the cooperative.
    My cooperative has enjoyed a good working relationship with 
Black Hills National Forest for many years. From the Forest 
Supervisor to the men and women in the field, there is a 
universal dedication to the mission of the Forest Service. The 
deplorable condition of the forest is not the result of bad 
people doing a lousy job, or the result of the management 
practices these talented people would have preferred. It is the 
consequence of a system that is broken and needs to be fixed or 
replaced.
    In the little time I have left, I offer the following 
suggestions for improvement of Federal lands. My written 
statement addresses them in greater detail.
    One. Include forest health as a major objective in all 
forest planning.
    Two. Review, reform, and streamline the planning process.
    Three. Include utilities in timber sales, forest 
improvement projects, and planning processes.
    Four. Review and improve fire suppression management 
practices to enhance effectiveness and lower costs.
    In conclusion, I would like to thank you for inviting me to 
testify today. Forest health is vitally important to this 
nation's health, and to the reliability of this electric power 
system.
    I am encouraged by the Subcommittee's interest in the 
topic. Thank you.
    [The prepared statement of Mr. Hutt follows:]

 Statement of Dan Hutt, General Manager and Executive Vice President, 
         Black Hills Electric Cooperative, Custer, South Dakota

    Thank you Chairman Radanovich and Chairman Walden, Members of the 
Subcommittees, and a special thank you to Representative Herseth from 
my home state. Chairman Walden, thank you for visiting the Black Hills 
of South Dakota last August and for holding a subcommittee hearing 
there. You have first-hand knowledge of the area and some of the 
challenges we face.
    I appreciate the opportunity to address the subcommittees on forest 
management practices as they relate to electric service. My name is Dan 
Hutt. I am a native of the Black Hills with a degree in biology and 
twenty-seven years of experience with the electric cooperative serving 
the area. I have also served on the Bureau of Land Management Dakotas 
Resource Council and am currently an alternate member of the Black 
Hills National Forest Advisory Board.
    Black Hills Electric Cooperative has approximately 1,000 miles of 
transmission and distribution power lines within the boundaries of the 
national forest with 250 miles of that on Black Hills National Forest 
special use permits. The cooperative provides permanent electrical 
service to dozens of national park, national forest, U.S. Geological 
Survey, and state game, fish, and parks facilities. We also provide 
service to fire departments and other emergency responders, 
communications facilities, and fire suppression camps.
    Due to the management practices of the past few decades, much of 
the Black Hills National Forest is overpopulated with unnaturally dense 
and unhealthy stands of Ponderosa Pine trees. The overcrowded forest 
conditions and the severe drought of recent years have created ideal 
conditions for unprecedented infestations of the mountain pine beetle. 
The millions of dead and dying beetle-infested trees have contributed 
to the already excessive fuel loads creating dangerous conditions that 
support large, intensely hot, unmanageable wildfires. Please refer to 
the testimony at the subcommittee's hearing in Hill City, South Dakota 
in August of 2005 for details of the forest conditions.
    The forest conditions have had a major impact on cost and 
reliability of electric service in the cooperative's service territory. 
Since 2000 almost 200,000 acres have burned in intense wildfires. Black 
Hills Electric Cooperative sustained greater losses in those fires than 
any other private property owner. Miles of power line were completely 
destroyed and a substation was permanently disabled. Thousands of 
families and businesses were without power.
    Falling trees and wildfires have been the single largest cause of 
power interruptions on the cooperative's system over the past five 
years. The cooperative has had to expend extensive resources to combat 
the danger of beetle-infested trees and other trees weakened by decades 
of forest management practices. The cooperative is discouraged from 
adequate clearing by requirements of advance payment at market price 
for unmarketable trees cut during right-of-way (ROW) maintenance.
    The cooperative has a legal obligation to serve all within its 
service territory. With the present forest conditions the risk to 
provide that service is astronomical. One spark from a falling tree, 
severe winds, or an equipment failure could ignite an inferno that 
would be devastating to Black Hills' communities and to the 
cooperative.
    My cooperative has enjoyed a good working relationship with the 
Black Hills National Forest for many years. From the Forest Supervisor 
to the men and women in the field there is a universal dedication to 
the mission of the forest service. The deplorable condition of the 
forest is not the result of bad people doing a lousy job or the result 
of the management practices these talented people would have preferred. 
It is the consequence of a system that is broken and needs to be fixed 
or replaced.
    In the little time I have left, I offer the following suggestions 
for improvement in the management of federal lands. My written 
statement addresses them in greater detail.
    1.  Include forest health as a major objective in all forest 
planning.
    2.  Review, reform, and streamline planning processes. Provide for 
the use of categorical exclusions or similar management tools for most 
projects. Review the effectiveness and advisability of all 
environmental requirements. Limit appeals and litigation of forest 
management decisions. Allow local forest managers more flexibility and 
place more weight on local comments received during the hearing 
process.
    3.  Include utilities in timber sales, forest improvement projects, 
and planning processes. Strengthen stewardship programs for fuel 
reduction on forest areas adjacent to private lands and utility ROWs. 
Plan timber sales so that they enhance utility ROWs. Remove barriers to 
utility ROW maintenance including prior notification, limited access, 
and fees for unmarketable trees. Remove beetle-infested trees from 
wildland/urban interfaces and areas adjacent to utility ROWs. Promote 
negotiation between federal agencies and utilities in the development 
or extension of special use permits. Encourage agency personnel to 
participate in free safety training provided by utilities.
    4.  Review and improve fire suppression management practices to 
enhance effectiveness and lower costs. Include utility structures in 
fire protection assignments. Remove the risk of strict liability from 
special use contracts and assess damages only in the case of proven 
negligence.
    5.  Amend or repeal 36 CFR 251 so that it does not encourage 
excessive analysis at the expense of special use permit holders.
    In conclusion, I would like to thank you for inviting me to testify 
today. Forest health is vitally important to this nation's health and 
to the reliability of its electric power system. I am encouraged by the 
subcommittees' interest in the topic. Thank you, and I'd be happy to 
answer any questions you might have.
                                 ______
                                 
    Mr. Radanovich. Thank you, Mr. Hutt. Next is Mr. Albrecht. 
Thank you, sir, you may begin your testimony.

         STATEMENT OF CARL ALBRECHT, GENERAL MANAGER, 
          GARKANE ENERGY COOPERATIVE, INC., LOA, UTAH

    Mr. Albrecht. Chairman Radanovich and committee members, 
thank you for the opportunity to make comments today. There 
will be a couple of attachments to my testimony. First of all, 
a letter, my letter to DOE concerning section 368 of the Energy 
Policy Act, and an email I received from Congressman Matheson's 
office concerning section 368 as well.
    I am Carl Albrecht, CEO of Garkane Energy, a rural electric 
co-op that serves electricity to areas of south-central Utah 
and north-central Arizona. We serve approximately 12,000 
customers over 2,000 miles of line, 16,000-square-mile service 
territory from central Utah to the north rim of the Grand 
Canyon.
    We serve four national parks: Zions, Bryce Canyon, Capitol 
Reef, and Grand Canyon, I think more than any utility in the 
country. Private landownership in these three major counties 
that we serve is only 5 percent to 10 percent. We also serve 
the Grand Staircase-Escalante National Monument, the Pipe 
Springs National Monument, the Glen Canyon National Recreation 
Area, three different national forests--the Kaibab in Arizona, 
the Dixie and Fishlake in Utah--considerable Indian lands, or 
considerable BLM lands and two Indian tribes.
    We are presently working on a new transmission line near 
Bryce Canyon which involves four Federal agencies. We have been 
asked to study eight different routes for this line, which in 
my mind, under section 368 of the new Energy Policy Act, the 
agencies themselves should decide which route they prefer, and 
then let us know.
    We realize we will have to pay the EA on the selected 
route, but we should not have to study eight different routes.
    We filed with the Department of Energy for a corridor 
designation on this line in November of 2005, after the Energy 
Policy Act was passed last August. I don't see that it was 
included in the preliminary November 7, 2005 report to Congress 
on corridors and rights-of-way on Federal lands, and only one 
of our transmission lines was recognized.
    It appears to me that the agencies themselves are lost and 
vague at best on the administration of section 368 of the 
Energy Policy Act.
    We have a small hydro plant which we are in the process of 
relicensing with FERC. We just recently signed a settlement 
agreement with the Forest Service and the State of Utah, which 
has now been sent to FERC for their review and hopeful approval 
on the relicensing process.
    We started this process in 2002, and to date have spent 
over $800,000 completing 29 separate studies for the various 
government agencies. We will spend over $1 million to renew 
this license when it is completed. I do want to thank the 
Forest Service for their efforts in helping us reach the 
settlement agreement.
    During the winter of 2004 and 2005 the Northern Arizona 
region of our service area received record snowfalls. These 
snows took down over 100 trees along our power line which 
serves the north rim of the Grand Canyon. We had to hire heavy 
equipment to go in and clear access to 16 structures which were 
broken by fallen trees, at a cost of over $100,000.
    We have asked the Park Service in the Kaibab Forest to 
allow us to clear more trees and eliminate dangerous leaning 
trees, but have been unsuccessful because of the rules and 
regulations concerning the Goshawk and the Mexican Spotted Owl 
Habitat. The Forest Service has admitted to us there are no 
Mexican Spotted Owls on the forest, and they don't know if 
there ever has been. Unfortunately, the majority of the line is 
located in Mexican Spotted Owl Habitat.
    Not only does this situation provide problems in the 
winter, but it is extremely hazardous for potential forest 
fires in the summer, because, as this gentleman has mentioned, 
we have the same problem with beetle kill. And it is killing 
all the forests in the Southwest and throughout the West.
    Concerning Garkane's and Utah Power's transmission lines 
through the Grand Staircase National Monument, both companies 
signed a non-impact plan for the two parallel lines in November 
of 2001. We were told at the time, in a letter by the monument 
manager, that the plan is not in full force until the surveys 
and the maps are completed. The surveys were to be completed by 
December of 2001 by the monument.
    In July of 2003 we met with officials to discuss the 
status. They indicated portions had been completed, but we 
would have to hire an archaeologist to complete it if we wanted 
it done sooner. We have not heard from them since, which leaves 
both companies in a questionable position when it comes to 
maintenance on these lines.
    The NEPA process, in my opinion, has become more of a 
political process than an environmental process. Land use plans 
are almost always challenged on procedural grounds, rather than 
on substance. When it takes these organizations eight years to 
develop a 10-year plan, there is a problem. There is ``process 
paralysis'' within these various agencies.
    If I were king for a day, things would move along a little 
more expediently. There would be more reasonable procedures, 
and the personnel in the local agency offices would have an 
ongoing dialogue with us. We are not the enemy; we are just 
trying to operate a small utility and provide reliable service 
to our little part of the world in a prudent manner.
    I have been hopeful and remained optimistic about securing 
these rights-of-way and solving these problems, but my 
retirement may come sooner than any decision on these issues.
    Thank you for the opportunity to comment today, and I will 
be happy to answer questions when we are all completed.
    [The prepared statement of Mr. Albrecht follows:]

             Statement of Carl Albrecht, General Manager, 
              Garkane Energy Cooperative, Inc., Loa, Utah

    Thank you, Mr. Chairman, for your giving me this opportunity to 
testify on an issue of such importance to the member-owners of my rural 
electric cooperative. I am Carl Albrecht, the CEO of Garkane Energy 
Cooperative, Inc., a rural electric cooperative which serves 
electricity to the rural areas of South Central Utah and North Central 
Arizona.
    Garkane serves approximately 11,000 customers over 2,000 miles of 
transmission and distribution line, or about 5 1/2 customers per mile 
of line. It is a unique electric utility in that we serve Zions, Bryce 
Canyon, Capitol Reef, and Grand Canyon National Parks
    We also serve the Grand Staircase-Escalante National Monument, the 
Glen Canyon National Recreation Area and three different National 
Forests--Kaibab in Arizona and Dixie & Fishlake in Utah. We also serve 
considerable BLM administered lands and several state parks.
    As you can imagine, we have many lines which traverse and serve 
these governmental entities and the rural communities surrounding them. 
Over the years, Garkane has experienced difficult and lengthy time 
periods in securing new rights-of-way for new and upgraded power line 
facilities.
    For example, we are presently working on a new transmission line 
from our Tropic, Utah, Substation east of Bryce Canyon, to our Hatch 
Substation west of Bryce Canyon, which involves four federal agencies--
Grand Staircase-Escalante National Monument, Dixie National Forest, 
Bryce Canyon National Park, and the BLM. We have been asked to study 
eight different routes for this line. From my perspective, under the 
Energy Policy Act, the agencies should decide themselves which route 
they prefer and let us know their preference. We realize we will have 
to pay for the Environmental Impact Statement (EIS) on the selected 
route, but we should not have to study eight different routes.
    We filed a corridor designation for this line with the Department 
of Energy in November of 2005 after the Energy Policy Act of 2005 was 
signed into law by President Bush in August. (Copies of my comments to 
DOE are attached.) It was not recognized in the preliminary November 7, 
2005 Report to Congress on corridors and right-of-way on federal lands. 
In fact, only one of Garkane's transmission lines was recognized.
    We are also working with the Dixie National Forest on a new line to 
serve the rapidly growing area of Cedar Mountain, which is north of 
Zion National Park. We are told that a decision on this line will be 
made by this fall
    During the winter of 2004 and 2005, the Northern Arizona Region of 
our service area received record heavy snowfall. The heavy wet snows 
took down over 100 trees over our power line which serves the North Rim 
of the Grand Canyon. We had to hire heavy equipment to clear access to 
16 structures which were broken or taken down by falling trees, at a 
cost of over $100,000. We have asked the Grand Canyon Park Service and 
the Kaibab National Forest to provide us a wider right-of-way to clear 
more trees and eliminate dangerous leaning trees, but have been 
unsuccessful in obtaining that right-of-way because of the rules and 
regulations concerning the Goshawk and the Mexican Spotted Owl Habitat. 
The Forest Service admits there are no Mexican Spotted Owls on the 
forest and don't know if there ever has been. Apparently things have 
changed. Previously, the Forest Service dealt only with the owl and 
habitat related to the owl. Now, habitat has equal standing to a 
species with an endangered listing. Unfortunately the majority of the 
line is located in Mexican Spotted Owl habitat. To work on the right-
of-way or line from March 1 through August 31 (the time most conducive 
to work) surveys would need to be completed for two consecutive years 
prior to any activity. Once the survey is completed, a consultation 
with the U.S. Fish & Wildlife as necessary. Garkane would have to pay 
the U.S. Fish & Wildlife Service for the survey and consultation.
    We are authorized to complete maintenance from September 1 through 
February 28 (usually a very short window due to snow) in the Mexican 
Spotted Owl habitat without the survey and consultation. The Forest 
Service is very reluctant to let any bulldozer work be done or have any 
ground disturbance.
    In Capitol Reef National Park, our right-of-way requires us to give 
them seven days written notice before entering for maintenance or 
repairs, with daily notification before initiating any work. During 
emergencies, we notify them as soon as possible.
    Concerning Garkane's and Utah Power's transmission lines through 
the Grand Staircase-Escalante National Monument (GSENM), both companies 
signed a joint O&M Plan for the two parallel lines in November 2001. We 
were told in a cover letter signed by the Monument Manager, that the 
``plan is not in full force'', until the surveys and maps have been 
completed. The maps and surveys were supposed to have been completed by 
December 31, 2001. In July of 2003, we met with Monument officials to 
discuss the status. They indicated portions had been completed, but we 
would have to hire an archeologist to complete it, if we wanted it done 
sooner. We have not heard from them since.
    There is an old saying that the world is run by those who show up. 
Well, we have shown up to all the meetings, we have made comments to 
the agencies, but we do not get timely responses or action.
    The NEPA Process, in my opinion, has become more of a ``political 
process'', than an ``environmental process''. Land Use Plans are almost 
always challenged on procedural grounds, rather than on substance. When 
it takes these agencies eight years to develop a 10-Year Plan, there is 
a problem with the process. There is ``process paralysis'' within these 
organizations.
    I have met with my Congressional Representatives, Representative 
Matheson and Representative Cannon, and have worked with Senator 
Hatch's Office, all of whom have been helpful; however, it seems the 
word never trickles from the top to the local office on the ground. 
Representative Matheson's staff member's e-mail to me dated April 5, 
2006, is also attached, outlining their perspective on how Section 368, 
Energy Right-of-Way Corridors of the EPAct, will flow through the 
various agencies. It appears the agencies themselves are lost and vague 
at best on this issue.
    I have been hopeful and have remained optimistic about securing 
those rights-of-way and solving these problems, but my retirement may 
come sooner than any decision on these issues.
    Again, thank you for inviting me to testify on this important issue 
to the 11,000 member-owners of Garkane Energy Cooperative. I would be 
happy to take any questions you might have.
                                 ______
                                 
    [NOTE: Attachments have been retained in the Committee's official 
files.]
    Mr. Radanovich. Thank you, Mr. Albrecht. We appreciate your 
testimony.
    Next is Mr. Michael Neal with the Arizona Public Service. 
Mr. Neal, welcome to the Subcommittee. You may begin.

  STATEMENT OF MICHAEL NEAL, MANAGER OF FORESTRY AND SPECIAL 
      PROGRAMS, ARIZONA PUBLIC SERVICE, GLENDALE, ARIZONA

    Mr. Neal. Good morning. My name is Michael Neal, and I am 
the Manager of Forestry and Special Programs for Arizona Public 
Service, where I manage over 18,000 miles of distribution and 
transmission lines in Arizona.
    Thank you for inviting me to testify on behalf of APS and 
the Edison Electric Institute. A year ago APS and EEI met with 
Members of the House and Senate, as well as FERC commissioners, 
about right-of-way management problems on Federal lands. We 
were concerned that the inability to properly manage vegetation 
on rights-of-ways on Federal lands posed a risk to grid 
reliability and public safety, and could cause utilities to 
violate reliability standards which, under the then-pending 
energy legislation, would become mandatory.
    You acted and included the right-of-way management 
provision in the Energy Policy Act (EPAct) of 2005. Thank you 
for that, and for your continuing oversight activities.
    I would like to report that we are beginning to make some 
progress, particularly in Arizona's national forests. There is, 
however, a long way to go in other parts of the country.
    Managing clean vegetation on or near rights-of-way has 
often been very difficult, regardless of whether the right-of-
way is located on private or Federal lands. While integrated 
vegetation management and utility vegetation management 
requirements only impact less than a fraction of a percent of 
overall Federal lands, the consequences of not effectively 
managing the rights-of-way and powerline corridors can be 
monumentally damaging to the rest of the land; for example, 
forest fires, as you mentioned earlier. It can also jeopardize 
reliable electric service.
    The three most recent major power outages in the United 
States were triggered by electric transmission lines 
interacting with trees, leaving as many as 60 million Americans 
in the dark. The intense public review that followed the last 
U.S. blackout yielded two significant conclusions. First, 
existing laws and requirements governing vegetation management 
activities were not adequate to reduce the incidence of 
vegetation-related blackouts. Second, the decentralized process 
and variable procedures for approving utility vegetation 
management activities for rights-of-way across Federal lands 
are an obstacle to timely and scientifically based management.
    In general, the problems of managing rights-of-way on 
Federal lands are several. It takes too long to approve 
vegetation management activities, even routine maintenance. 
Routine maintenance left undone can quickly create emergency 
dangerous situations that increase the risk of fire and the 
loss of power, as trees continue to grow toward the power lines 
without regard to manmade decision timelines.
    Federal land managers frequently change their minds about 
accepted practices, even when pre-approved vegetation 
management plans are in place, and there is no common view 
among the different forests regarding accepted practices. 
Redundancy and repetition and reviews and work requirements add 
delay without corresponding benefits.
    Utilities often cannot remove dead and dying trees located 
within or adjacent to a right-of-way that pose immediate threat 
to transmission facilities. Federal land managers are not 
adequately trained to understand and appreciate the technical 
requirements for power line reliability and safe operation.
    Finally, while integrated vegetation management is widely 
accepted as scientifically sound, environmentally beneficial, 
and a cost effective approach to right-of-way management, the 
techniques are not well understood by land managers.
    APS has experienced all these problems at one time or 
another in its efforts to carry out essential activities on its 
rights-of-way within the five national forests crossed by our 
power lines. The situation came to a head in one of our 
national forests last year, when no clearance of vegetation had 
been allowed for 18 months, even though we were able to clear 
to our standards on other national forests.
    We had to take a 500-kV line out of service when the line 
tripped from interaction with five overgrown trees we had been 
unable to get permission to remove. This ignited a fire in 
overgrown brush under the wires. Had wind conditions been 
different, we would not have been able to extinguish the fire. 
Another 500-kV line parallel to this line would have been 
affected.
    The line was out of service for over 18 hours until the 
problem was found. We had to compensate by bringing more 
expensive peaking units on line. There have been other 
incidents and also we have also lost distribution lines from 
fire where vegetation management activities were blocked, in 
one case leaving a community without power for 12 hours.
    I tell you these stories to underscore the critical need 
for Federal land managers and utilities to work together to 
revamp the current approach to managing rights-of-way of the 
lands.
    In 1997, I approached the forest officials about the 
developing a memorandum of understanding to provide a more 
effective and consistent process for managing their rights-of-
way, including accepted practices. When our efforts stalled, 
EEI began pursuing a national MOU in 2001, eventually aided by 
the new EPAct 2005 requirement that Federal land managers 
expedite approvals for UVM activities required to comply with 
mandatory reliability standards.
    The MOU is now being signed by the U.S. Forest Service, the 
Bureau of Land Management, the Fish and Wildlife Service, the 
Environmental Protection Agency, the National Park Service, and 
EEI on behalf of its member companies. EES is a first step 
toward implementation of section 1211[c] of the EPAct, and 
toward ensuring the management of rights-of-way on Federal 
lands is not an impediment to maintaining reliable electric 
service.
    In conclusion, I would like to briefly summarize a 
practical day-to-day effect of our progress in Arizona. We have 
a hazard tree process in place that uses email to transmit 
information on trees, GPS location and maps, approval response 
time has been reduced to a day or two. In the past there was no 
consistent process, and those tree removals took a couple of 
weeks to get processed, with little cooperation from the Forest 
Service.
    We are now able to schedule and work based on biological 
assessments we prepare subject to U.S. Forest Service approval. 
The lead time required has been reduced to weeks in all but one 
national forest, instead of months and years previously 
required, when you had to wait for overburdened Forest Service 
personnel to prepare the assessment.
    APS and the Forest Service put together a UVM working group 
to develop an MOU for IVM work practices. Included in the IVM 
plan to address is the bark beetle issue as well. The draft MOU 
was completed and presented to the forest supervisors on April 
27, 2006 for their review.
    If approved, this will provide a consistent approach to all 
vegetation management activities within all the national 
forests in Arizona. This process will make all utilities in 
forests accountable to a standard format process of doing 
business. No longer will individuals within a certain forest 
dictate their own personal agendas to the work we need to get 
accomplished. A forest supervisor will appoint a central point 
of contact for each forest to act as a liaison for Arizona 
utilities.
    Despite these promising developments, we still have a long 
way to go in Arizona and certainly elsewhere in the country to 
assure the reliability of facilities on Federal land. The 
character of the electrical grid has changed considerably since 
the Energy Policy Act of 1992. The 2005 Act will accelerate 
these changes.
    As a result, where power lines cross Federal lands, these 
lands should be considered, first and foremost, as a central 
part of the nation's critical infrastructure. I encourage you 
to be vigorous in your oversight, and to step in when it is 
productive to do so.
    Thank you for holding this hearing. APS and EEI look 
forward to working with you on these issues. Thank you.
    [The prepared statement of Mr. Neal follows:]

    Statement of Mike Neal, on behalf of Arizona Public Service and 
                     The Edison Electric Institute

    My name is Mike Neal, and I am the Manager of Forestry and Special 
Programs for Arizona Public Service (APS), where I administer 5,000 
miles of transmission and 15,000 miles of distribution lines throughout 
Arizona. I appreciate the opportunity to testify before this joint 
subcommittee hearing on behalf of APS and the Edison Electric Institute 
(EEI).
    APS, Arizona's largest and longest-serving electricity utility, 
serves more than 1 million customers in 11 of the state's 15 counties. 
With headquarters in Phoenix, APS is the largest subsidiary of Pinnacle 
West Capital Corporation (NYSE: PNW).
    EEI is the premier trade association for U.S. shareholder-owned 
electric companies and serves international affiliates and industry 
associates worldwide. Our U.S. members serve 97 percent of the ultimate 
customers in the shareholder-owned segment of the industry and 71 
percent of all electric utility ultimate customers in the nation.
    It has been one year since APS and EEI first spoke with members of 
the House and Senate about problems associated with managing rights-of-
way on federal lands. At the time, the August 2003 blackout that left 
50 million Americans without electricity was a recent memory, and 
Congress was close to enacting a comprehensive energy bill that would 
make reliability standards mandatory, including standards for 
vegetation management. We came to Congress out of concern--based on our 
own direct experience and those of other utilities--that the inability 
to manage vegetation related to rights-of-way on federal land poses a 
risk to grid reliability and public safety and could lead utilities to 
violate mandatory reliability standards. We also talked to former 
Chairman Wood and Commissioner Brownell at the Federal Energy 
Regulatory Commission (FERC) about the issue, that they both might 
understand and support effective and aggressive utility vegetation 
management (UVM) efforts to prevent future blackouts and ensure the 
integrity of the nation's electric grid.
    I am here to thank you for including a provision in the Energy 
Policy Act of 2005 that begins to address this issue and for your 
continuing oversight interest. I am also here to report progress in 
Arizona towards resolving some of our concerns, while recognizing that 
similar progress needs to be made elsewhere in the country.
    Managing and clearing vegetation on or near rights-of-way has often 
been very difficult, regardless of whether the right-of-way is located 
on private or federal land. While Integrated Vegetation Management 
(IVM) and UVM requirements only impact--less than a fraction of a 
percent--of overall federal lands, the consequences of not effectively 
managing the rights-of-way (ROW) and powerline corridors can be 
monumentally damaging to the rest of the land (massive forest fires, 
etc). It can also jeopardize reliable electric service. The three most 
recent major power outages in the United States were triggered by 
electric transmission line interaction with trees. The blackouts of 
July 2, 1996, August 10, 1996, and August 14, 2003, resulted in the 
loss of power to 2 million, 4 million, and 50 million customers 
respectively. In 2003, a tree-caused blackout in Italy left 55 million 
Europeans in the dark.
    The last major U.S. blackout led to intense review by utilities, 
the FERC, the North American Reliability Council (NERC) and the 
National Association of State Regulatory Commissions (NARUC). Among the 
most significant conclusions reached during this review was that 
existing laws and requirements governing UVM activities were inadequate 
to assure a low probability of future vegetation related blackouts. 
Also, the decentralized process and variable procedures for approving 
utility vegetation management activities for rights-of-way across 
federal lands are an obstacle to timely and scientifically-based 
vegetation management.
    The first conclusion has been and is being addressed by a revision 
of existing standards for utility vegetation management that will 
ultimately become a FERC-approved mandatory reliability standard. 
Violation of the new standard could result in penalties of up to $1 
million a day. Addressing the second conclusion is still a work in 
progress.
    In general, the problems of managing rights-of-way on federal land 
are several:
    <bullet>  Vegetation management decisions are not timely, even for 
required routine maintenance. The inability to carry out routine 
maintenance can quickly lead to an emergency danger situation, 
increasing the risk of fire and the loss of power. Trees continue to 
grow towards the powerlines regardless of a decision timeline.
    <bullet>  Decisions regarding acceptable practices are inconsistent 
across districts, and sometimes even from year to year within the same 
districts. The presence of pre-approved vegetation management plans has 
not always insulated utilities from inconsistent decisions.
    <bullet>  Redundancy and repetition in reviews and work 
requirements add delay without a corresponding benefit.
    <bullet>  The inability to remove dead and dying trees or other 
vegetation poses an immediate threat to transmission facilities, 
whether located within or adjacent to a right-of-way.
    <bullet>  Federal land managers often do not adequately appreciate 
or understand the technical requirements for managing rights-of-way to 
assure reliability and public safety, including reducing fire hazards.
    <bullet>  Finally, federal land managers often do not accept or 
recognize the environmentally beneficial, technically sound, and cost 
effective techniques of IVM, which is the utility standard. In fact, 
the American National Standards Institute (ANSI) has recently approved 
a new standard for IVM under the A-300 standard. This is a consensus 
standard developed and approved with representation from the 
arborcultural industry, the Department of Labor, the Forest Service and 
the National Park Service.
    Arizona Public Service has experienced all of these problems at one 
time or another in our efforts to carry out essential activities on our 
rights-of-way within 5 of the 6 national forests crossed by our 
powerlines in Arizona. For almost a decade, we were stymied in our 
efforts to obtain a consistent approach to vegetation management, which 
came to a head in one forest when no clearance of vegetation was 
allowed for 18 months even thou we were able to clear to our standards 
on the 4 other national forests. Last June, we had to take a 500 kV 
line out of service when the line tripped from interaction with 5 
overgrown trees we had been unable to get permission to remove. This 
ignited a fire in overgrown brush under the wires. Had wind conditions 
been different, we would not have been able to extinguish the fire and 
another 500 kV line parallel to this line would have been affected. Our 
line was out of service for over 18 hours until the problem was found. 
We had to bring online peaking units to compensate. These units are 
much more expensive to run.
    Also in about the same time frame, in the same forest, a lightening 
strike started a fire in overly dense brush under a 500 kV transmission 
line. The heavy black smoke from the fire tripped the circuit five 
times. We've also lost distribution lines to fire where vegetation 
management activities were blocked, in one case leaving a community 
without power for 12 hours.
    I tell you these stories to underscore the critical need for 
federal land managers and utilities to work together to revamp the 
current approach to managing rights-of-way on federal lands. In 1997, I 
approached our forest officials about developing a memorandum of 
understanding (MOU) to provide a more effective and consistent process 
for managing our rights-of-way, including accepted practices. When our 
effort stalled, EEI stepped in around 2001, with the support of APS and 
other member utilities, to seek such an MOU at the national level. 
Negotiations on this MOU intensified following the August 2003 blackout 
and during the oversight conducted by Congress in 2005. In the Energy 
Policy Act of 2005 (EPAct), Congress requires federal land managers to 
expedite approvals necessary to assure that companies can comply with 
mandatory reliability standards approved by FERC for vegetation 
management.
    I am pleased to report that that Memorandum of Understanding is now 
in the process of being signed by the U.S. Forest Service, the Bureau 
of Land Management, the Fish and Wildlife Service, the Environmental 
Protection Agency, the National Park Service, and EEI on behalf of its 
member companies. We view this as a first step towards implementation 
of Section 1211(c) of EPAct and towards assuring that management of 
rights-of-way on federal lands is not an impediment to maintaining 
reliable electric service. The MOU recognizes the technical standards 
and requirements for maintaining reliability and signals to all federal 
land managers that meeting them is a priority.
    I am also pleased to report that we have made significant progress 
as well within our national forests in Arizona. We have agreed upon a 
clear and technically sound definition of a ``hazard tree,'' which will 
facilitate the identification and removal of hazard trees. The Regional 
Forester has initiated a Section 7 Emergency Endangered Species Act 
Consultation for hazard tree removal that embodies a comprehensive 
programmatic approach to power line maintenance activities. Phase I 
requires the individual forests to initiate an emergency Section 7 
consultation on hazard tree removal. Phase II will develop a biological 
opinion covering hazardous tree removal for a period of 18 months, and 
Phase III will be preparation of a comprehensive programmatic 
biological assessment and opinion covering hazardous tree removal and 
routine right-of-way maintenance.
    In addition, we are again moving towards completion of an MOU with 
all 6 national forests in Arizona, which will recognize the technical 
requirements and accepted practices for managing a transmission and 
distribution right-of-way for reliability. Nevertheless, we have a long 
way to go in Arizona, and certainly elsewhere in the country, to assure 
the reliability of facilities on federal land. I encourage you to be 
vigorous in your oversight and to step in when it is productive to do 
so.
    In conclusion, I would like to briefly summarize the practical day-
to-day effect of the progress that we have made with the Forest Service 
in Arizona since APS and EEI initiated discussions with the Committee a 
year ago.
    <bullet>  Past history--Notifications of hazard tree removals were 
done by a phone call with no consistent process in place. In fact, most 
removals took at least a couple of weeks to get processed with little 
cooperation from the Forest Service. In some cases we had to go over 
the District Rangers authority to the Forest Supervisor to get 
approval.
    <bullet>  Present--We have a hazard tree process in place that 
sends information on trees, GPS locations, and maps attached to an 
email that is responded to within a day or two for removal.
    <bullet>  Past history--We used to wait for months to years for 
biological assessments to be completed by the Forest Service for our 
work in the forests. They said it wasn't a priority and they were 
overloaded with work.
    <bullet>  Present--We now do our own biological assessments and 
have them sent in for approval before we are scheduled to do the work. 
This is a much simpler process and lets us schedule our work instead of 
the Forest Service. It has reduced the time to weeks instead of months 
or years in all national forests except for one.
    <bullet>  Past history--There was not a programmatic approach to 
combining numerous projects together for the Forest Service or the U.S. 
Fish and Wildlife Service (USFS) and it would take over 120 days for 
work to be approved thru the USFWS.
    <bullet>  Present--We are in the process of developing a 
programmatic agreement with all Arizona Forests and USFWS that will 
eliminate the 120-day waiting period and streamline our work 
tremendously. Once this project is completed in 2008 the utilities will 
contact the Forest Service in the beginning of the year for its annual 
work plan and file a report at the end of the year on the 
accomplishments.
    <bullet>  Past history--Our integrated vegetation management 
program wasn't accepted by all the national forests for managing 
rights-of-way, even though this approach is based on over 50 years of 
university research. In one case we haven't been able to perform this 
function for over 4 years.
    <bullet>  Present--APS and the Forest Service have put together a 
UVM working group to develop an MOU for IVM work practices. This was 
completed and presented to the Forest Supervisors on April 27, 2006 and 
we are now waiting for their decision. If approved this will provide a 
consistent approach to all vegetation maintenance activities within all 
6 National Forests in Arizona. This process will make all utilities and 
forests accountable to a standard format and process of doing business. 
No longer will individuals within a certain forest dictate their own 
personal agendas to the work we need to accomplish. Forest Supervisors 
will appoint a central point of contact for each forest to act as a 
liaison for Arizona utilities.
    <bullet>  Past history--Emergency consultations (EC) were used on 
trees infested by the bark beetle, but the trees did not fit the 
initial requirements of the existing hazard tree definition. This 
always led to a lot of discussion and disagreement between utilities, 
Forests, and USFWS which delayed our ability to remove the trees.
    <bullet>  Present--EC are now being built into the programmatic 
document and hazard trees will be addressed with a process for their 
identification and removal throughout the State. Once this process is 
approved the utility will identify the hazard trees and remove them 
without intervention from the Forest Service as long as the utility 
follows the programmatic agreement. At the end of the year the 
utilities will file a report on the hazard tree program which will 
include number, location and species.
    Finally, the character of the electric grid has changed 
considerably since the Energy Policy Act of 1992. EPAct 2005 will 
accelerate those changes. As a result, where powerlines cross federal 
lands, these lands should be considered first and foremost as an 
essential part of the nation's critical infrastructure. Thank you for 
holding this hearing. APS and EEI look forward to working with you on 
these issues.
                                 ______
                                 
    Mr. Radanovich. Thank you, Mr. Neal. I appreciate your 
testimony.
    I would like to recognize the Chairman of the Forests and 
Forest Health Subcommittee for questions. Mr. Walden.
    Mr. Walden. Thank you very much, Mr. Chairman, I appreciate 
that.
    Mr. Eldrige, I am going to go to you first. This notion 
about a single tree that your folks have identified as a danger 
that could fall onto power lines, you reference that in your 
testimony. That was identified, and the Forest Service was 
notified in July of 2005?
    Mr. Eldrige. Correct.
    Mr. Walden. And that tree is still standing?
    Mr. Eldrige. It was before I left town, yes.
    [Laughter.]
    Mr. Walden. Nine months ago you sought approval to remove 
one tree that you folks, in their professional opinion, thought 
could pose a jeopardy to the power lines, and perhaps fall and 
start a fire for which you would be liable, correct?
    Mr. Eldrige. That is correct.
    Mr. Walden. What does the Forest Service say? Why does it 
take nine months to get an answer on removing one tree?
    Mr. Eldrige. He was very apologetic, and said ``I just 
forgot it.''
    Mr. Walden. You know, it strikes me that maybe we need to 
change the law so that if you make that request, in 30 to 60 
days, some such figure, if you haven't gotten an answer, then 
the liability shifts.
    Mr. Eldrige. Well, you know, I think that we should only be 
liable for things that we are shown to be negligent for. That 
is the way the rest of the world works, and that is what you 
can get insurance coverage for, easily.
    I also think, as you are alluding to, there ought to be a 
timeframe. I think, also, that we are allowed a 30-foot right-
of-way distribution line.
    Mr. Walden. Right.
    Mr. Eldrige. That is really inadequate.
    Mr. Walden. Why shouldn't you be allowed to manage within 
that right-of-way, though?
    Mr. Eldrige. Well, this tree was just outside the right-of-
way.
    Mr. Walden. But it is taller than 30 feet, right?
    Mr. Eldrige. Yes, exactly.
    Mr. Walden. So, I mean, OK, you have a 30-foot right-of-
way. But if something taller than that can fall in and still 
hit the line, shouldn't you have the ability, in some expedited 
process?
    Mr. Eldrige. That is exactly the answer, but we have been 
unable to get to that point.
    Mr. Walden. You know, I referenced in my comments the 
problems in Cascade Locks. If you look up at this painting on 
the right here on the wall, Cascade Locks is about 20 miles on 
up the gorge. I live another 17 miles from that.
    It is like a blowtorch condition in the summer, if you get 
a fire, and it almost burned up the City of Cascade Locks when 
that fire started.
    Mr. Eldrige. Closed the freeway, too.
    Mr. Walden. They actually dropped borate on the freeway to 
try and stop the fire. And it is a wonder, it is a miracle, 
frankly, it didn't burn up the whole town. And in the 
discussions I have had with the city, because it is a municipal 
power system there, they are very frustrated with their 
limitations to be able to do what their professionals thought 
should be done to protect the safety of the lines and prevent 
this sort of fire from breaking out in the first place.
    And now we are in this dispute with the Forest Service 
about who is really liable. And frankly, the odd thing is the 
line supplies power down to Multnomah Falls Lodge, not to the 
City of Cascade Locks. And so they have actually said they will 
just cut the power off to Multnomah Falls Lodge, and then we 
won't have to worry about it, which makes no sense, but I 
understand their frustration.
    This issue you raised about moving one pole?
    Mr. Eldrige. Yes?
    Mr. Walden. How long did that take you to get approval?
    Mr. Eldrige. Over a year.
    Mr. Walden. And it is how far from the nearest stream?
    Mr. Eldrige. It is a mile from the nearest creek, and 12 
miles from the nearest stream that has a listed species in it.
    Mr. Walden. Twelve miles from the nearest stream with a 
listed species.
    Mr. Eldrige. Correct.
    Mr. Walden. How much do you think it cost the Forest 
Service and your utility to go through this process for moving 
one pole or cutting one tree?
    Mr. Eldrige. Well, fortunately they didn't require us to 
have a bunch of public hearings, and go through the kind of 
assessment, written assessment and study that I think they 
could have.
    I think what happened is the member up there on the ski 
lodge was so upset that he was on their doorstep every day, and 
just wore them down, or it still wouldn't be done today.
    Mr. Walden. So the Forest Service, they incurred costs to 
process this? Or what took so long?
    Mr. Eldrige. I don't think anything was done. I think it 
just sat there. And it was unclear to us how to move forward.
    Mr. Walden. Let us go to this issue in Central Oregon then, 
and the moving of the line that you referenced, a quarter-mile 
move into a right-of-way that was approved. How many years was 
involved in that?
    Mr. Eldrige. They are two years into it, and it is still 
not done.
    Mr. Walden. And they had to give how many years' notice in 
advance?
    Mr. Eldrige. The planning now for BLM and U.S. Forest 
Service is three to five years' notice, written notice, before 
you can do anything.
    Mr. Walden. And then they have to go through the process 
you described.
    Mr. Eldrige. Well, that is possibly true. I mean, you would 
hope if you were given five years' notice, at the end of that 
five years you would have approval or rejection.
    Mr. Walden. And I guess I understand, if we are going to 
put a new right-of-way in, why you would do perhaps a full 
NEPA, so you recognize all the process.
    Mr. Eldrige. Sure.
    Mr. Walden. But once that right-of-way is there, it seems 
to me there ought to be an expedited and simplified system to 
maintain the safety of the forest and your lines, so we don't 
have interruptions in power distribution, and we don't create 
forest fires that do far more damage than cutting one tree or 
moving one pole.
    And my time has expired. But before I give up the mic, I 
want to thank especially Mr. Hutt, all of you for your 
testimony, but Mr. Hutt, it is good to see you again. I 
certainly enjoyed being in South Dakota, and appreciated your 
testimony then and here.
    Thank you very much.
    Mr. Radanovich. Thank you, Mr. Walden. Mrs. Napolitano.
    Ms. Napolitano. Thank you, Mr. Chairman. I have a couple 
questions that were raised in video testimony listening to you. 
And I would like to have any one of you respond to this 
question.
    What would be a reasonable timeframe for the approval of 
vegetative management plan, understanding that Forest Service 
obligation to comply with the NEPA, and the NEPA to adequately 
ensure analysis and public participation?
    Mr. Neal. My understanding is, from the Forest Service and 
Fish and Wildlife Service, is if you are doing routine 
maintenance, you don't have to go through the NEPA process 
again. They already, in some cases, have been through that 
process.
    The things that you need to do is biological assessments to 
make sure you work around timing issues for the Goshawk or 
Eagle, whatever the case may be, that you can't do any clearing 
activities during the breeding season. So those things need to 
be identified.
    As far as building new lines, as mentioned, we have to go 
through the whole NEPA process. But some particular districts 
will tend to throw the NEPA process in place where they don't 
have to. And again, it is analysis paralysis for some of the 
Federal agencies that we work for. In my mind, I think they 
just try to cover their bases from losses in a lot of cases.
    Ms. Napolitano. Anybody else?
    Mr. Albrecht. We understand that there is another group 
that is putting pressure on the Forest Service and other 
government agencies, as well, and that only takes a postage 
stamp to do that. Frivolous lawsuits against the government 
agencies. And I feel for them in that regard.
    But somehow, somewhere reasonableness and sanity and common 
sense has to enter into this when you have areas that are 
growing, and new developments, and so forth, and lines that are 
under capacity. You know, it seems to me that if good planning 
takes forth, and we hire the consultant to do the study for 
them, they ought to could make a decision in two years, to me.
    Mr. Blair. Many times we are forced to go back and do 
additional studies. If you have a right-of-way and you are 
replacing an older line that was approved in the past, you 
start back at step one to simply replace it, to upgrade that 
power line.
    There are other issues between just the planning stages of 
acquiring a right-of-way and maintaining that right-of-way. It 
doesn't require necessarily the NEPA process or anything like 
that to maintain it; you just have to have their blessing, and 
they have to identify what you can and can't trim. And it is 
very narrow in the scope.
    They want you to take as little as possible, which is 
understandable. But we are spending hundreds of thousands of 
dollars and making multiple trips because we are not able to 
take an adequate right-of-way in the beginning, or maintain an 
adequate right-of-way throughout the process.
    We also have situations in my territory where you go to 
make minor changes, and you do start the process all over again 
because they have introduced something differently since the 
power line was built. We have the Gunnison Sage Grouse Habitat. 
They introduced, for some reason, the Lynx into the Gunnison 
Sage Grouse Habitat, and now we have to study both of those 
before we can make changes to our power line that has been 
there for 50 years.
    Mr. Neal. I would like to follow up with one comment that 
we are working on with the Arizona national forests and the 
utilities, is the MOU.
    With this MOU we are working with the U.S. Fish and 
Wildlife Service and the Forest Service. And they are going to 
do the biological assessments and a programmatic approach to 
all the national forests. And so once this is approved, it is 
going to have what our clear standards are, what we are going 
to clear, all those timing restrictions we have to work around.
    And then at the beginning of the year, all we have to do is 
submit a plan of what we are planning to do that coming year. 
And at the end of the year, following and explaining to them 
what we have done and accomplished along those lines that we 
scheduled to work.
    Once that is put in place, and this will basically take two 
years for them to do a review of all the power lines in 
Arizona, we don't have to worry about timing restrictions any 
more, them slowing up the process. Once it is in place, we can 
just go ahead and do the work. And I think that is really a 
process that the rest of the country needs to look at. I think 
it is a win-win for everyone.
    Ms. Napolitano. But it is a plan that you are working on 
just specific to Arizona.
    Mr. Neal. That is correct.
    Ms. Napolitano. I will yield to the next round, Mr. Chair, 
because I have several other questions of the panel.
    Mr. Radanovich. Thank you, Mrs. Napolitano. Mr. Duncan, did 
you have any questions?
    Mr. Duncan. Thank you, Mr. Chairman, I don't have any 
questions. But you know, when I hear things like Chairman 
Walden's example of $312,000 being charged to the small City of 
Cascade Locks, and I hear these examples of hundreds of 
thousands of dollars in expenditures to do things, and take 
many months or years to do things that could be done in a day 
or two, the arrogance of the leaders and people in some of 
these extreme environmental groups never ceases to amaze me.
    And when they put these hundreds of thousands of dollars of 
extra charges on small utilities, like Mr. Albrecht's and 
others, who it ends up hurting are the poor and the lower-
income and the working people, because those costs have to be 
passed on to people who have difficulty paying them.
    And I have noticed that most of these environmental 
extremists always come from very wealthy and very upper-income 
families, and they are not hurt by it. But there is a lot of 
people that I represent, and that most of us represent, who are 
hurt by things like that.
    And we have to get this NEPA process and some of these 
other things under control. They are out of control now. There 
are also some people, it is not just environmental groups, 
there are some people in the Federal bureaucracy who aid and 
abet these groups, and I suppose think they are doing good 
things. But they are hurting a lot of people in this country in 
the process, and that is all I would say.
    And I hear example and example and example of this, day 
after day after day, and read about it. And it is just really a 
shame. Thank you very much.
    Mr. Radanovich. Thank you, Mr. Duncan. Ms. Herseth.
    Ms. Herseth. Thank you, Mr. Chairman. Before posing a few 
questions for Mr. Hutt, as Mr. Walden and the others have done 
to get at some specific examples of what is happening as it 
relates to access to rights-of-way, I would like to just point 
out for Members of the committee, because we have a few other 
folks from South Dakota in the audience today, over the past 
five months in South Dakota our rural electric cooperatives 
have suffered tremendous damage because of winter storms.
    A winter ice storm that hit the central and eastern part of 
South Dakota, but after Thanksgiving, and just a couple of 
weeks ago, which you may have heard about, Chairman, 
Radanovich, we had six feet of snow in certain areas in the 
Black Hills of South Dakota just a couple of weeks ago, where 
Mr. Hutt's cooperative as well as other power agencies suffered 
significant damage in the western part of the state.
    And that leads me to a question of looking at emergency 
situations like post-winter storms, where we have downed lines, 
areas that are particularly affected by a severe drought that 
we have had, that we hope some of this moisture will help us 
out with, serious bug infestations in certain areas and other 
circumstances that are more emergent, versus your routine 
access.
    So could you talk a little bit with the committee about 
accessing your rights-of-way during emergency situations versus 
routine access? Have your dealings with the Forest Service been 
different in light of certain circumstances? And perhaps share 
with us some of the delays that I know you have had as it 
relates to routine access and maintenance and brush-clearing to 
deal with the threats that are posed, including a threat to the 
City of Deadwood. Whether it is Cascade Locks or the subject of 
an HBO series, all of the threats to any of our communities is 
a very serious matter of public safety.
    And you have heard already the frustration about being able 
to get in to maintain rights-of-way that, when you have a 
forest like the Black Hills National Forest with the Ponderosa 
Pine reproducing itself at such a dramatic rate, it might be 
helpful to the committee to understand what delays you faced, 
if you have seen any improvement, and how that might change in 
an emergency situation.
    Mr. Hutt. Thank you. Thanks to your committee meeting that 
Chairman Walden held and your interaction on our behalf with 
the Black Hills National Forest, we have had some meaningful 
dialogue with them, and they have been responsive.
    On routine maintenance, we have made arrangements so that 
we can go in. And if there are just a few trees to cut, we can 
cut them, and we can notify the Forest Service afterwards.
    If we have substantial cutting to do, then we have to go 
through the NEPA process. And one of the problems in the Black 
Hills is that for many decades, we weren't allowed to do 
routine tree-trimming, and so we got a substantial undergrowth, 
which you can see in some of these pictures. In fact, at one 
point about 20 years ago, a previous CEO of my company was 
cited because our crews cut Christmas trees without a permit. 
That is what they classified the clearing of the trees in the 
right-of-way. They had violated that law.
    Things are better, thanks again to your input. It still 
takes a long time to do anything. In our work with the Forest 
Service, they agreed that we should change one provision, one 
sentence in our special use permit. We both agreed that we 
needed that change. And we were informed that it could take as 
much as a year and a half to get that one sentence changed in 
our special use permit, through the review process.
    Ms. Herseth. Could you visit a little bit about some of 
what we discussed as the Black Hills National Forest has 
suffered under drought conditions for a number of years? At one 
point you were denied access--well, you were granted access, 
but only on horseback, I believe, because of the threat that 
the Forest Service felt to give you access in other manners, 
because of the drought conditions. And yet it was precisely the 
drought conditions that you were trying to address in the 
right-of-way because of some of the lines that had trees close, 
impinging in the right-of-way.
    Mr. Hutt. We aren't routinely denied access. But during 
drought conditions, why, the use of motorized vehicles or 
chainsaws is not allowed, either. So when there are drought 
conditions, why, we are forced to live with these 
restrictions--travel curtailment and use of equipment.
    Ms. Herseth. May I ask one follow-up question?
    Mr. Radanovich. Sure.
    Ms. Herseth. Thank you, Mr. Chairman. How have the delays 
in some instances that you have experienced, understanding that 
the situation has improved with the new supervisor and some of 
the dialogue that you have initiated, what impact does that 
have on your rate-payers as it relates to the liability that 
you face, as well as the increased costs once you do get in 
after certain delays, and the substantial undergrowth that you 
mentioned?
    Mr. Hutt. There are a number of issues there. Of course, 
paying for the trees that we can't market is one of them.
    The other is the liability that we face. And these 
gentlemen have talked about strict liability, where we are 
forced to pay for fire suppression charges if a tree falling 
across our lines should ignite a fire. We have had to increase 
our liability coverage 30fold just for the potential of a fire 
from a tree.
    We are limited to 10 feet on either side of the line, 
except endangered trees which we can identify. So in a dry 
situation, where you have a forest in the condition of the 
Black Hills, the liability out there is extreme because we have 
thousands of trees--millions, actually--we estimated 4 million 
trees within falling distance of our lines. And any one of them 
in a storm could fall across a line, and it could be 100 feet 
from our right-of-way.
    Ms. Herseth. Thank you much. Thank you.
    Mr. Radanovich. Before I recognize Mr. Cannon, I do have a 
question. Because during the Black Hills fires a number of 
years ago, didn't Senator Daschle put a provision in that 
allowed agencies to go in proactively and cut sooner in the 
threat of fire danger? And did that have any impact on what you 
do, then, in South Dakota?
    Mr. Hutt. It was a narrowly focused right for a specific 
area of the Hills, and it did not apply in general.
    Mr. Radanovich. OK. Thank you.
    Ms. Herseth. Just to reiterate the point, it was very 
narrowly defined, and it was right on the wildland/urban 
interface. That has been cited at different times for some of 
the discussion of the full committee, but it was very narrow, 
and it didn't specifically address right-of-way issues.
    Mr. Radanovich. We need to widen that narrow exception, I 
think. Mr. Cannon.
    Mr. Cannon. Thank you, Mr. Chairman. That exception was a 
limitation on the jurisdiction of Federal Courts to review 
decisions by Forest Service folks. In the need to incorporate 
some of those in the healthy forest world, Chairman Walden 
ushered through, with great effort over a long period of time, 
that these limitation jurisdictions are, you build this 
monster, and then we have to restrain it. There is something 
wrong with that.
    In fact, frankly I just wanted to, first of all, associate 
myself with Congressman Duncan, who pointed out who bears the 
cost of these huge bureaucracies that interfere with what we 
are doing.
    And second, I would like to express to all of our panel, 
thank you for being here, and congratulate you for your very 
restrained presentations. I know it has to drive you absolutely 
nuts.
    [Laughter.]
    Mr. Cannon. Particularly my friend, Carl Albrecht, for whom 
this is, I know, not a great passion. And in fact, Mr. 
Albrecht, you do a pretty significant thing. You service, you 
provide the electricity for all of the northern end of the 
Grand Canyon, which services millions of people every year, 
isn't that right?
    Mr. Albrecht. That is correct.
    Mr. Cannon. Can I just ask in that context, how much it 
costs for you to do an EIS on eight different power line routes 
that various groups have suggested, as opposed to an EA on a 
single route?
    Mr. Albrecht. Well, your question on the north rim, let me 
just make a comment there. And I think all these gentlemen will 
agree, it depends on which forest you are dealing with, and 
which district ranger office within that forest of how the 
rules are interpreted, and what you are allowed to do. And it 
varies greatly, let me tell you.
    Somehow, somewhere, sometime that needs to be consistent 
across the board with the Forest Service, and they all need to 
get the same message.
    Now, concerning the eight rights-of-way through Bryce 
Canyon National Park, we went out and got estimates, because we 
thought we would have to study, do an EIS and study two routes. 
They ranged from $150,000 to $550,000. Now, if we are to study 
eight routes, you can probably do the math.
    My feeling is that section 368 of the Energy Policy Act, 
those agencies need to declare which agency is going to be the 
lead agency. They need to get their working routes together. 
They need to decide, tell us which right-of-way they want us to 
do. We will go hire the consultant to do the EA or the EIS, and 
we will pay for it, and we will get the line built.
    But these agencies, it is incumbent upon them, under 
section 368, to get the ball rolling.
    Mr. Cannon. Thank you. You talked about process paralysis, 
and Mr. Hutt talked about a year to get bureaucratic approval 
of the one Senate change. I am going to suggest a problem. I 
would love to tell you, Mr. Albrecht, and the rest of the panel 
respond to that, it seems to me that what we have done here is 
we have a whole bunch of relatively young people. The Forest 
Service, in fact, has a huge number of people that will retire 
over the next five years or so and who may have hung up their 
hats already, frankly.
    It is not like when I was young and working in the 
Agriculture Department when we had so many great bureaucrats 
who knew how to do things, and it was a culture. Now we have 
seen a shift in that culture, and partly because we have young, 
and now there are many people and many levels of review, and 
there is no decision responsibility that is clear. And these 
people operate under the fear of litigation.
    Is that a fair analysis of what has happened here? Is that 
a fair analysis, Mr. Albrecht?
    Mr. Albrecht. Well, the Forest Service, you know, they are 
going to be sued by some environmental group no matter what 
they do. Could we just send a retired Forest Service supervisor 
to the Black Hills? He was a good man. Mr. Hugh Thompson from 
the Dixie National Forest in Cedar City. He believed in the 
multiple-use concept.
    A lot of these people who have joined these agencies and 
coming up through the ranks and making the decisions now, do 
not.
    Mr. Cannon. Let me just interrupt you now. I would like to 
hear, the fact is multiple use is embedded with absolute 
clarity in law.
    Mr. Albrecht. It is.
    Mr. Cannon. And the problem is that you have people who 
know it. And you have this fellow who is a supporter of the 
idea. But is it essentially the problem that law doesn't matter 
when you get a bureaucracy that amends the law with culture, 
with bad culture?
    Mr. Albrecht. The law is interpreted differently from one 
forest or one agency to another, and within district offices 
within that agency. And it all needs to be the same. It is all 
the Federal government, it is all the Forest Service, it is all 
the Park Service. One office needs to interpret that the same 
as the other.
    Mr. Hutt. I would just like to address a couple things. The 
turnover in the Forest Service is substantial. When you talk to 
one person, you maybe go through a whole process, and then you 
have to go through the whole thing again in six months because 
somebody else has taken the place.
    The other thing you mentioned is the levels of review. To 
make a simple change in a special use permit requires multiple 
levels of review.
    And the third thing is the appeals. In the Black Hills 
National Forest, every appealable decision made by the Forest 
Service has been appealed. Every single one. And some of them 
more than once. Thank you.
    Mr. Cannon. Thank you, Mr. Chairman. I see my time has 
expired. I yield back.
    Mr. Radanovich. Thank you, Mr. Cannon. We are pleased to 
have Mr. Bishop from Utah join us in the Subcommittee. I would 
ask unanimous consent that the gentleman from Utah may join us 
on the dais and participate in today's hearing. Hearing no 
objection, I welcome our colleague from Utah. So ordered.
    Mr. Bishop. I was about to object, Mr. Chairman.
    [Laughter.]
    Mr. Bishop. I appreciate the opportunity of being able to 
come back here.
    Mr. Albrecht, let me just pick on you for just a second. 
Going back to the historical purpose of the reason for having 
rural co-ops in the first place, why were you all established?
    Mr. Albrecht. Why were the electrical co-ops established? 
To serve the rural areas, because the investor-owned utilities 
could see no profitability there. And so, in 1935, FDR 
established the Rural Electrification Act. And no money was 
made available to co-oppers at that time, 1935 to 1940. A lot 
of co-ops were created at that time. That money has risen in 
cost, as you well know, and most of the cooperatives have 
bought out from RUS, and now have their own private bankers.
    But that is the reason. The investor-owned utilities saw no 
profitability there.
    Mr. Bishop. We are dealing with these groups and a group 
that does not have, by definition, equal opportunity or equal 
protection or equal access. We are dealing with a group of 
people who, by definition, will always be put at some kind of 
disadvantage.
    And I think as we are coming up with policies, we need to 
make sure we remember why these organizations were established 
in the first place, and that there is a specific need that is 
distinct and different. Rural people, those living in rural 
areas, have a distinct disadvantage to those living in urban 
areas, and the types of getting this kind of basic needs. 
Especially in electrical areas.
    In fact, you have answered all these questions as time has 
gone on here. Mr. Albrecht, you have lines that go through 
forest and BLM lands. Is there a different administration, 
different set of rules between the two?
    Mr. Albrecht. There is, and there is a difference between 
the various district forest ranger districts and the BLM 
districts.
    Mr. Bishop. Is there anyone on the dais that has given a 
presentation so far, that does not think that because of the 
different interpretations which are given in each office, and 
especially through different types of regulatory bodies, that 
there is a need for Congress to step in and come up with some 
kind of uniform way in which these decisions could be 
administered? Is there anyone who disagrees with that?
    Mr. Neal. No, I don't disagree. Just so you know, EI 
submitted legislation recommendation to the Resource Center, 
accompanied by legislation language addressing vegetation 
management issues on a Federal level.
    Mr. Bishop. Mr. Chairman, I think you have done a marvelous 
job in bringing testimony in here, expert testimony, that 
simply recognizes there is a compelling need to deal with a 
group of people who are being serviced at a disadvantage in the 
first place, to come up with some kind of way of bringing some 
uniformity so people can actually do their jobs and provide for 
the betterment of people in rural areas. It is a crying need.
    If I could just pontificate for one minute, and I will 
hopefully end up before the light turns yellow. You do a lot of 
suspension bills in this committee. Last time you had one that 
came to the Rules Committee. You had a representative who was 
not a member of this committee claim the process and the 
product of not this subcommittee, but the Resource Committee, 
is not representative of the Nation as a whole. Basically, he 
was saying there are too many Westerners who serve on this 
committee, and they don't get the full picture. And their 
amendment at that particular time of this gentleman was totally 
gutting the process and the work of this committee.
    I think he has a point. Because as I look around at the 
name tags of all these people here, with the exception of my 
good friend from the South, we don't really have any Easterners 
on this panel. You are all Westerners. You see things in a 
different way. And listening to the testimony here, it makes 
your blood boil to see what is happening out in the western 
part of this country.
    And I think one of the things that we really need to do 
desperately in this Congress is make sure that all of our 
friends who don't have representation on this committee hear 
this kind of testimony. I think when it comes second-hand, it 
is not nearly as forceful, it is not nearly as dramatic or 
impactful as when you hear what these people have to deal with 
on a daily basis. And some of our good friends who are not in 
the western part of the United States need desperately to 
understand this is what is happening to the West. It is 
happening on a daily basis, and there is a desperate need for a 
lot of the reforms that are coming out of the Resource 
Committee.
    I think you have done a great job, Mr. Chairman, of 
bringing people here that will identify something that has to 
be done. And we can't keep piddling around with it, and we 
can't keep waiting on it.
    And I will yield back, because it just went yellow.
    Mr. Radanovich. Thank you, Mr. Bishop. Words well said. 
Mrs. Napolitano.
    Ms. Napolitano. Thank you, Mr. Chair. And I agree with your 
comments. But I would hate to state that we are not helpful to 
the rest of the nation, because that is our job.
    I would like to inquire one more avenue, and that is, given 
the Forest Service's ability to do their job in different 
areas, could they better improve communications with the rural 
electric utilities given that the amount of money requested for 
hazardous fuels reduction in that 2007 budget is woefully 
short? Like about $299 million?
    It is a dramatic cut in programs intended to ensure the 
cooperation with state and private lands. What effect do you 
think this will have on maintaining the work order of these 
lands and rights-of-way?
    And while you might mull that over in your mind, I am 
listening to the presentations and the questions from my 
colleagues about standardization and the ability to be able to 
do that, I am sure that can save money for everybody.
    However, is that something that you see, given the current 
situation of reducing of funds to be able to carry out some of 
those new programs, or the ability to work together, like in 
Arizona?
    Mr. Blair. I would like to respond to that. A properly 
maintained right-of-way is maintained on our nickel. If they 
will allow us to maintain those rights-of-way through their 
property, it goes a long way to create a natural fire break. 
And so part of what they are wanting to achieve, we are trying 
to achieve for them. Just let us do it.
    And so the impact financially would simply be people 
allowing us, you know, giving us the blessing to clear our 
right-of-way.
    Ms. Napolitano. But is it the fact that they don't have 
enough personnel to deal with giving you that ability to do 
your job?
    Mr. Blair. I can only speak for my system. Working within 
my system, I have both. I have districts who, we never get what 
we want, but who do not have the personnel to get out and do 
it. And we have districts who simply do not want it done.
    Ms. Napolitano. OK.
    Mr. Eldrige. I really don't personally think it is a 
personnel issue. In fact, this is how you would manage a 
shrinking budget, is that you would put broad policy and then 
implementation rules underneath, where there are standards that 
you abide by.
    I mean, we have construction standards, we have numerous 
standards that we have to abide by, or we lose our financing. 
And so we just abide by them, besides it being a good thing to 
do.
    And so I really think the answer is less process, be clear 
about what is to be achieved, and then set up the rules and the 
guidelines to achieve them.
    The other thing is, I really believe in this concept of 
policy of place. And that is, you have broad policy, but every 
place is a little bit different. I don't have some of the 
problems that South Dakota has. So it needs to be mitigated for 
the actual set of circumstances. But then the rules can be 
written once, and we will abide by them.
    Ms. Napolitano. But is it interpretation that is causing 
different districts to interpret them differently?
    Mr. Eldrige. Yes, I think it is. But that is why clear 
interpretation needs to be written by the people that wrote the 
policy. Legislative intent, if nothing else.
    Ms. Napolitano. Well, yes. But if they interpret the 
current rules differently, what is to prevent them from 
interpreting new rules to their own----
    Mr. Eldrige. Fire them, and get somebody in there who will 
follow the rules we set up. I mean really, somebody--this is a 
problem. There is not true management. If I had this kind of 
activity, there would be new people in there.
    Ms. Napolitano. Well, but you train your people. Do you 
bring them together? Is it something we should be doing, is 
bringing all those different folks who are in decisionmaking 
authority together, issuing the same information to them, 
holding them all accountable to the same requirement?
    Mr. Eldrige. Sure. That is a great idea.
    Mr. Neal. I would also encourage these committees, there is 
two things that I see are important, is the training issue, as 
I mentioned in the testimony. Federal land managers really 
don't understand the electric grid and the need for vegetation 
management. The MOU that we are working at the national level 
does have that training.
    Then I think you need to have, instead of the local 
district, have control of utility corridors, because they cross 
multi-districts or different national forests. And what one 
district stops you from doing can affect the reliability of the 
grid.
    So it needs to be headquartered at the regional office, 
where the regional forester takes responsibility for the 
distribution and transmission lines in the national forest. 
That way, there is some direct oversight, and the decisionmaker 
is making that final decision. And there is a peer process for 
the utilities that they can't get what they want, as far as 
following sound environmental standards in their clearing 
activities.
    Ms. Napolitano. Anybody else?
    Mr. Albrecht. Well, I was just going to say if I was facing 
a budget cut, in your example, the Forest Service facing a 
budget cut, my resource is the trees, the forest. I would want 
to protect those. So anything I could do to protect the forest, 
I would do it. If I had to get rid of a bug and bunny counter, 
fine. I would protect the forest. That is what they are all 
about.
    Ms. Napolitano. Thank you. One last question, Mr. Chairman, 
and I will be done.
    To Mr. Neal. In the proposal that you have worked on in 
Arizona, rural environmentalists at the table, would you work 
with the environmental community?
    Mr. Neal. As far as putting the MOU together within the 
national forests, it is basically the utility working group 
includes a utility representative, and then U.S. Fish and 
Wildlife representative and Forest Service representative from 
each national forest we serve. There is nobody from the 
environmental community as far as that working process.
    Ms. Napolitano. Are they aware of what you are putting 
forth? Is there any comment?
    Mr. Albrecht. Well, I am also on Governor Napolitano's 
Forest Health Council. And I have talked about the process with 
them, and there are environmental groups, Sierra Club and the 
Center for Biodiversity, that are a part of that. And they have 
heard, you know, me talking about those subjects with them.
    You know, quite frankly, I think they understand the need, 
especially with the fires and the outages and things that are 
associated with that. And like I say, just like it is up in 
these areas, the forest health is deplorable. We need to do 
something. We need to manage our forests, as you all know. And 
I think they understand there is a need.
    Ms. Napolitano. Thank you, Mr. Chair.
    Mr. Radanovich. Mr. Walden.
    Mr. Walden. Thank you, Mr. Chairman. I just have to follow 
up because some of us on the committee actually helped write, 
and pass, and vote for the Healthy Forest Restoration Act which 
deals with forest study, which set up the authorization that my 
friend and colleague from California is referencing.
    And I know the Administration has fully funded this effort 
within that authorization, although they have moved some money 
around. And certainly more money could always do more work out 
in the forests. They are moving at a record pace, I would say, 
having cleared, I think it is 4 million acres last year in 
thinning projects. And I know there are Members of this 
committee who opposed that bill, probably would oppose those 
thinning projects today.
    My colleague from South Dakota, Ms. Herseth, and I have 
crafted the Forest Emergency Recovery and Research Act to get 
at precisely the issues you have identified here in terms of 
the costs to the Agency and the delay to the Agency to come to 
a decision after a catastrophic event. And if the Agency 
follows all environmental laws and decides it should remove 
timber, then do it in a timely way, so that the timber still 
has value. And the Forest Service and the Congressional Budget 
Office have come back to this committee and said if you do 
that, not only will you save money, you will make money for the 
Forest Service, and the Chief has testified to that case.
    So if your concern is there is a lack of funds to the 
Forest Service, if your concern is about restoring the forest 
to a healthy status quicker, then we have the product for you 
to vote for. But unfortunately, we don't get those votes 
sometimes, and that is disconcerting.
    In your case, though, this isn't about money to actually go 
in and cut the brush and the trees, because you and your 
ratepayers are paying for that, correct?
    Mr. Albrecht. Correct.
    Mr. Walden. So I was a journalism major, not a math major, 
but I have a trusty calculator. And I just figured out, for the 
1,140 residents in Cascade Locks, if the Forest Service bills 
them, that is the equivalent of $273.68 for every man, woman, 
and child in that community. Because they contend they weren't 
able to do the kind of work you are saying you are not always 
able to do in a timely manner, and so a fire broke out.
    It just strikes me that common sense is lost in this 
discussion all too often when dealing with Federal agencies. 
And it isn't that there aren't good people in the Federal 
agencies. It is they are conflicted in how to interpret the 
law, how to interpret their own rules, and then how to 
interpret some judge's decision who weighs in forest by forest, 
frankly, and makes decisions on what should be done.
    It is our responsibility to fix that mess. It is our 
responsibility for the health of the forest, for the safety of 
the residents near your power lines, to those who receive your 
power and pay the bill. And I don't know, it just escapes me 
because it seems so obvious, that somehow we ought to craft a 
system that if you have a right-of-way and a power line through 
that right-of-way, and you have done your initial NEPA to get 
that right-of-way, we ought to have a standardized set of 
principles, like Mr. Eldrige has testified to, and you all I 
think would agree to, that says here is how you manage that 
right-of-way. If you have trees you think are going to fall 
onto your lines, maybe tell us, but we will give you a quick OK 
to go take them out.
    I am told the Forest Service has to be the one that goes 
out and marks each tree. Is that correct?
    Mr. Eldrige. Yes.
    Mr. Walden. So if you identified that tree back in July, 
Mr. Eldrige, you are waiting until now and still haven't gotten 
the OK to cut it down. And when you get the OK, somebody from a 
Forest Service office will have to come out and paint a stripe 
around that tree, right?
    Mr. Eldrige. That is correct.
    Mr. Walden. And so you have already identified--do we have 
to number these trees now? Is this what we do? This is 
nonsense, and it is costly. We can throw rocks at 
administration or this or that, but at the end of the day it is 
our ratepayers, our forests; it is your customers that are 
paying a bill they don't need to pay. Yes, sir.
    Mr. Neal. Just based on what you said. We had a bark beetle 
infestation in Arizona, as well. And we have approximately 
2,100 miles of Ponderosa Pine forest type. These trees were 
outside of the permitted right-of-way, and the permit states 
that we are responsible for maintaining that utility corridor, 
under the direction of the forest supervisor in charge. So even 
though we have recognized standards, they don't necessarily 
agree with them.
    Also, we will be held accountable if a tree falls and 
starts a fire, then, as people mentioned, we are held 
accountable to those.
    We had a bark beetle infestation. We tried to get that 
support in removing those dead trees outside of permitted 
right-of-way, and they said it is your responsibility. Well, 
since 2003 your company has spent over $14 million removing 
dead trees adjacent to utility corridors to keep the lights on. 
So, I mean, that is an impact our customers are seeing because 
there isn't any cooperation. It is on the utility, and that is 
unfortunate, I think.
    Mr. Albrecht. I would just like to add to that, you know, 
there is livelihoods that depend on those forests, too. A lot 
of those dead beetle-killed trees could be sawed into lumber 
and marketed, and we wouldn't be paying what we are paying at 
the hardware store. We have a couple small sawmills in our area 
that are struggling, and we have forests that are just dying. 
They are terrible.
    Mr. Walden. We see them all over the country, sir.
    Mr. Albrecht. With recreational eastern homeowners that had 
built nice cabins in those forests. And I am telling you, it is 
not if, it is when it will all go up.
    Mr. Walden. Well, thank you. My time has expired. I 
appreciate the comments that you have shared with this 
committee, and hopefully we can take that and put it into 
action. I know we have arranged for a meeting with some of your 
folks and the Forest Service following this meeting in this 
room to see if at the top end of the Forest Service we can get 
the kind of agreements that would make a real difference for 
this country of ours, and straighten out this mess.
    Mr. Radanovich. Thank you, Mr. Walden. Mrs. Napolitano, any 
more?
    Ms. Napolitano. A very quick question, and it was brought 
out by the talk on the removal of underbrush and the trees, and 
the statement that you can sell some of them if you were able 
to.
    First of all, what do you do with that underbrush and those 
deceased trees that you cannot sell, that are unsalable? What 
happens to them?
    Mr. Blair. In our area, it is ground up and mulched. You 
either use it for groundcover for the project that you are 
working on, or you give it away. You get it out of there any 
way you can. There are always people willing to take that. 
Usually the Forest Service or the BLM would like to have it 
somewhere, and so we grind it up into mulch.
    Mr. Hutt. In our area it is either cut and left to lie, or 
it is piled in brush piles for subsequent burning, or in some 
cases it is chipped and scattered.
    Mr. Albrecht. It varies from district to district. Some of 
our districts want it cut and just scattered along the right-
of-way so it looks natural; others want it cleaned up so they 
can burn it later. It varies.
    Mr. Neal. In our area it is a visual, along the right-of-
way, it is required to be chipped and brought back along the 
right-of-way. If it gets beyond the visual, it gets scattered 
across the right-of-way.
    Ms. Napolitano. That brings up two questions. Once, if they 
are infested with that pine beetle, aren't you just spreading 
it to create another way of getting those beetles to go back at 
the trees? That is one.
    Second, if you have a large amount, and I am assuming that 
you do, has there ever been any consideration of utilizing the 
chips to burn for fuel to create energy?
    Mr. Neal. We have looked at burning for energy. Well, quite 
frankly, there isn't any market in Arizona for utilizing 
timber. It is pretty much everything has been run out of 
business. There is probably one or two mills located in 
Arizona, and they are overrun with wood product today because 
of the Rodeo-Chediski fires and bark beetle infestation. They 
can't handle any more.
    As far as utilizing wood chips for burning, it used to be a 
byproduct of another industry. For example, a laminated wood 
company, a byproduct that comes off of that can go to energy. 
But to set a mill up, there is no return.
    And then the other part is, what we produce is not going to 
run a mill, a biomass plant, all year around. So it has to be 
supplemented from other resources.
    Mr. Hutt. On your question on the beetle-infested trees, 
typically when the tree becomes a danger to a power line is 
after it has died. It has red needles, and lost its needles. By 
then, in the spring of the year the beetles have left that tree 
and gone to other trees.
    In regards to using it as fuel, the Black Hills National 
Forest Advisory Board has a subcommittee that is looking at 
that, but there is nothing available right now to do that.
    Ms. Napolitano. Thank you, gentlemen. And the reason I 
asked is because I had spoken to somebody in sanitation who say 
they can also use it for spreading onto a landfill, because the 
heat that generates out of a landfill is over 140 degrees. So 
that would kill any kind of infestation that would be present. 
Because I was interested in whether or not there would be eggs 
or any other kind of potential threat.
    But the reference to energy, burning trash in one of my 
facilities in my area creates energy that is sold to the 
electric company. That is why I was bringing that up and trying 
to figure out, because you have tons of the material that you 
either chip or use, and can conceivably become an industry that 
might help some of your communities be able to sustain or lower 
the cost of their own electricity needs.
    Mr. Eldrige. The volume is too low and the supply is too 
uncertain for it to work.
    Ms. Napolitano. I see. Thank you.
    Mr. Radanovich. Thank you, Mrs. Napolitano. Before we 
dismiss the panel, I have one further question.
    Mr. Neal, you encouraged Congress to continue oversight 
efforts, and to step in where it is productive to do so on 
these issues. Can you suggest to us or any of the other 
witnesses what steps Congress ought to take in order to resolve 
this issue?
    Mr. Neal. I think some of the things that you have all 
mentioned is streamlining the administration process on getting 
the approval to do the work that we need to do, incorporate UVM 
and best management practice into total maintenance, and 
training. I think it is very important that our fellow partners 
understand how electricity and how trees can interact with 
power lines and cause power outages.
    And again I also, as you mentioned, there is a financial 
liability to utilities, because all the burden is put on us if 
something happens. And there has to be some sort of joint 
responsibility if you refuse to allow us to get in and do the 
work once we identify a hazard and it is not timely. Because 
every day that tree sits there, and the gentleman has been 
sitting there for nine months, that is unacceptable. Because it 
can fall any day.
    Mr. Radanovich. Thank you. I would start with Mr. Eldrige.
    Mr. Eldrige. The thing I would add to what was just said is 
accountability; that we are very clear on what the expected 
outcome is. And if it is not brought about, we do something 
about it.
    Mr. Radanovich. Thank you.
    Mr. Albrecht. I would just say continue to dialogue with 
the cooperatives and the utilities, because if we are not 
talking, we are not going to accomplish anything. And those 
folks need to sit down and talk with us, listen to our 
concerns. We need to listen to theirs.
    I have always found that if two people are equally 
informed, they seldom disagree. And we are not to that point 
with them.
    Mr. Blair. I think one of the things that needs to happen 
is take many of the unnecessary steps out of the processes. If 
we have a defined right-of-way and we are able to maintain that 
right-of-way, and there are trees that are obviously within 
that right-of-way, we should not have to wait for somebody to 
come identify a tree and say this is in your right-of-way. We 
should be able to go and maintain that right-of-way and remove 
the tree.
    You know, it is akin to if you get a building permit to 
build your house, and you build your house; now do you have to 
go back and get permission to do maintenance on it? It is to 
the point of ridiculous. And especially at a point in time 
where the budget money is not there. These people could 
actually be out doing real work and progressing on other 
avenues where they are also behind.
    If you have a defined right-of-way, now if we violate that 
right-of-way, there ought to be a penalty. But if we stay 
within our right-of-way and within our agreed maintenance 
procedures, we should not have to have somebody come out and 
paint a tree for us to tell us that yes, it can be removed now.
    Mr. Hutt. In talking with Forest Service people in our 
area, they share our concerns and our frustration. And I think 
some of the things that they would like to see changed are 
limits, put some limits on which of their decisions are 
appealable.
    Also to streamline the process so that there is less 
process and more action, so that their field people could 
actually do work in the field, instead of all the planning and 
the paperwork.
    And also, I think the uniform requirements would be a good 
solution, too.
    Mr. Radanovich. Thank you. And thank you, Mr. Hutt, thank 
you, gentlemen.
    Any other questions of the panel? I want to thank all of 
you for being here. Mr. Hutt, would you please say hi to the 
King family and Pizza Works there in Custer?
    Mr. Hutt. I sure will.
    Mr. Radanovich. And again, thank you for all your 
testimony. It is pretty valuable. And with that, you are 
dismissed, and we will introduce the next panel.
    Next is Mr. Joel Holtrop, Deputy Chief for the National 
Forest System here in Washington, D.C. Mr. Holtrop, welcome to 
the Subcommittee. Lots to talk about. But we will give you five 
minutes to testify for this issue, and then we will open up the 
dais for questions.
    Again, if we can have order in the room, and keep the noise 
down. Mr. Holtrop, if you would like to begin, that would be 
wonderful.

   STATEMENT OF JOEL HOLTROP, DEPUTY CHIEF, NATIONAL FOREST 
             SYSTEM, U.S. DEPARTMENT OF AGRICULTURE

    Mr. Holtrop. Thank you very much, Mr. Chairman and Members 
of the Subcommittees. And thank you for the opportunity to 
appear before you today to provide the Department's views on 
the need for proper forest management on Federal rights-of-way 
to ensure reliable electricity services.
    The Department recognizes that electric utilities provide 
an essential service that is closely tied to our nation's 
economy and welfare. To meet both ecological and reliability 
standards, it is essential that the Forest Service and 
utilities work cooperatively to streamline and expedite the 
management of vegetation near utility lines and facilities.
    The Forest Service manages approximately 193 million acres 
of national forest and grasslands in 42 states, as well as the 
Commonwealth of Puerto Rico, managed under multiple-use and 
sustained-yield principles. The Forest Service oversees a vast, 
complex array of natural resources and opportunities.
    Rights-of-way for electric transmission lines are one of 
the many uses of national forest system lands. Presently there 
are approximately 3,000 authorized electric transmission and 
distribution facilities on the national forest and grasslands, 
including about 1,300 rural electric facilities.
    Rights-of-way for electric transmission lines are a 
legitimate use of national forest system land. We have a 
tremendous obligation and a great opportunity to work with the 
utility companies, and through them, serve our rural and urban 
communities. We see it as an important part of our mission.
    One of the most significant challenges in the management of 
electric transmission rights-of-way is the interference of 
undesirable vegetation. In order to provide a dependable supply 
of electricity, utilities must be able to manage vegetation 
near their transmission and distribution lines and other 
facilities to prevent blackouts and wildfires.
    Proper and coordinated planning for right-of-way management 
is critical for the Forest Service to expedite any approvals 
necessary to allow permit holders to comply with standards for 
vegetation management. Right-of-way operating plans developed 
and agreed to by both the permit holders and the Forest Service 
are key to streamlined approvals for effective actions for 
rights-of-way management.
    With an approved operating plan in place, permit holders 
can take actions to manage undesirable vegetation and ensure a 
dependable supply of electricity to the communities they serve.
    Nationally, the Department of Agriculture, along with the 
Department of Interior, Environmental Protection Agency, and 
the Edison Electric Institute, and Association of Shareholder-
Owned Electric Companies, will soon finalize a memorandum of 
understanding that establishes a framework for a cooperative-
integrated vegetation management set of practices for electric 
transmission rights-of-way. These same procedures could apply 
to other utility companies operating on national forest system 
lands.
    We expect to make further progress in managing undesirable 
vegetation in and adjacent to rights-of-way. As was mentioned 
earlier, proper and coordinated planning for right-of-way 
management is critical for the Forest Service to expedite any 
approvals necessary to allow permit holders to comply with 
standards for vegetation management.
    Mr. Chairman, with the new authorities that we have been 
given and the dedication and talent of the Federal Land 
Management Agencies and our partners, we are confident that we 
will make significant improvements in the management of 
electric transmission rights-of-way. We will continue to work 
with our utility partners to accomplish this. We appreciate 
your support.
    Now, as I have been listening, I decided I wanted to kind 
of write down a few thoughts to respond to, and let you know 
very explicitly what are some of the things that I am committed 
to do today, and into the future, to ensure that rights-of-way 
are managed properly and reliably for electric service.
    First of all, I am committed to finalizing the MOU that I 
referred to, and that was referred to in the earlier panel, as 
well, to provide a consistent approach to vegetation management 
across the national forests and grasslands.
    I am also committed to working with the Subcommittees to 
review the limited liability laws, regulations, and policies 
that we have. And I think that there have been enough questions 
raised on that that it would be useful for us to get together 
and talk about some of the establishment of that limited 
liability in law, and the regulations, and look for perhaps 
some ways that we can improve the situation for all our sakes.
    Third, I am committed to continuing to make changes in 
order to be more effective and efficient, such as what we heard 
is happening in Arizona, the work in Arizona. And as my full 
written testimony talked about, what we are doing on the Plumas 
National Forest in California, and some of the successes that 
we are finding there, and some of the streamlined consultation 
processes and other things that we can do. I am committed to 
continue to work on those and find ways to be more effective 
across the country.
    I am also committed to providing the committee with a more 
detailed assessment of some of the individual concerns that 
have been raised in the testimony that we just heard, and to 
provide actions to mitigate those concerns where appropriate.
    And finally, I would like to say that I am committed to 
continuing to dialog, to build relationships with, and to 
obtain the pre-planning that is necessary for us to accomplish 
the work that we are working together with the utilities, to do 
that together, and to continue that dialogue effectively.
    So thank you, and I look forward to any questions that you 
might have.
    [The prepared statement of Mr. Holtrop follows:]

               Statement of Joel Holtrop, Deputy Chief, 
         National Forest System, U.S. Department of Agriculture

    Mr. Chairman and members of the Subcommittees, thank you for the 
opportunity to appear before you today to provide the Departments views 
on the need for proper forest management on federal rights-of-way to 
ensure reliable electricity services.
    The Department recognizes that electric utilities provide an 
essential service that is closely tied to our Nation's economy and 
welfare. To meet both ecological and reliability standards, it is 
essential that the Forest Service and utilities work cooperatively to 
streamline and expedite the management of vegetation near utility lines 
and facilities, including facilities on federal lands, in a timely and 
efficient manner.
Overview
    The USDA Forest Service manages approximately 193 million acres of 
National Forests and Grasslands in 42 states, as well as the 
Commonwealth of Puerto Rico, managed under multiple use and sustained 
yield principles. In this context, the Forest Service oversees a vast, 
complex array of natural resources and opportunities. Rights-of-way for 
electric transmission lines are one of the many uses of National Forest 
System lands. Presently, there are approximately 3,000 authorized 
electric transmission and distribution facilities on the National 
Forests and Grasslands, including about 1300 rural electric facilities.
    Rights-of-way for electric transmission lines are a legitimate use 
of National Forest System land. We have a tremendous obligation and a 
great opportunity to work with the utility companies, and through them, 
serve our rural and urban communities. We see it as an important part 
of our mission as well as assisting in achieving one of our strategic 
plan goals of helping meet energy resource needs.
Rights-Of-Way Management
    One of the most significant challenges in the management of 
electric transmission rights-of-way is the interference of undesirable 
vegetation. In order to provide a dependable supply of electricity, 
utilities must manage vegetation near their transmission and 
distribution lines and other facilities to prevent blackouts and 
wildfires, which can harm people, wildlife, habitat, and property.
    Recognizing the importance of reliable electric service, Congress 
made provisions in the Energy Policy Act of 2005 to improve electric 
system reliability standards, including establishing vegetation 
management standards. Moreover, Congress specified that federal land 
management agencies responsible for approving rights-of-way for 
electric transmission or distribution facilities located on federal 
lands must expedite any approvals necessary to allow the owners or 
operators of these facilities to comply with standards for vegetation 
management, electric service restoration, and to resolve situations 
that imminently endanger the reliability or safety of the facilities.
    Actions can be taken to reduce the impacts of undesirable 
vegetation on electric transmission rights-of-way. Utility companies 
who hold a special use permit on National Forest System lands have the 
authority to clear branches or tress on or adjacent to the right-of-way 
that generally threatens safe transmission. In emergency situations 
(i.e. after a wind, or ice storm or other extreme weather event) permit 
holders may be allowed to take additional actions without prior 
approval, provided notice is given to the Forest Service within 48 
hours after the fact.
    Proper and coordinated planning for right-of way management is 
critical for the Forest Service to expedite any approvals necessary to 
allow permit holders to comply with standards for vegetation 
management. Right-of-way operating plans developed and agreed to by 
both the permit holders and the Forest Service are key to streamlined 
approvals for effective actions for rights-of-way management.
    Operating plans outlining communication contact information, health 
and safety standards and comprehensive maintenance operations for the 
rights-of-way management assure both the permit holder and Forest 
Service know what to expect when maintenance of rights-of-way are 
needed. With an approved operating plan in place, permit holders can 
take actions to manage undesirable vegetation and ensure a dependable 
supply of electricity to the communities they serve. Typically, 
notification from the permit holder for repair and maintenance 
activities could then operate as follows: Routine maintenance would 
require advanced notice for ground disturbance and tree removal, 
emergency repairs would require notice as soon as possible, and major 
actions would require substantial advance notice in order for the 
Forest Service to comply with applicable environmental law.
Cooperative Approach to Rights-Of-Way Management
    Nationally, the U.S. Department Agriculture along with the U.S. 
Department of the Interior, U.S. Environmental Protection Agency and 
the Edison Electric Institute--an association of shareholder-owned 
electric companies--will soon finalize a memorandum of understanding 
(MOU) that establishes a programmatic framework for developing a 
cooperative integrated vegetation management (IVM) set of practices for 
electric transmission rights-of-way. We anticipate these same 
procedures could apply to all utility companies operating on National 
Forest System lands.
    The objective of this MOU is to manage vegetation and the 
environment to balance benefits of control, costs, worker and public 
health and safety, environmental quality, and regulatory compliance.
    The MOU is intended to facilitate the following goals:
    <bullet>  Maintain reliable electric service;
    <bullet>  Maintain power line safety;
    <bullet>  Reduce the likelihood of wildfires;
    <bullet>  Protect the soil and water resources;
    <bullet>  Reduce the risk to human health;
    <bullet>  Streamline administrative processes for approving right-
of-way maintenance practices;
    <bullet>  Promote the use of local species in re-vegetation 
projects;
    <bullet>  Encourage outreach to educate the public in general about 
the use and acceptance of integrated vegetation management on electric 
transmission rights-of-way;
    <bullet>  Facilitate prompt evaluation and mitigation or 
eradication of dangerous right-of-way conditions; and
    <bullet>  Incorporate best management practices, where appropriate, 
into the terms and conditions of authorizations for electric 
transmission line rights-of-way.
    In addition to the development of the National MOU, the Forest 
Service and electric utilities are working cooperatively to promote 
sound management within rights-of-way for electric transmission. Some 
examples are as follows:
    <bullet>  In October 2005, the Forest Service and the Bureau of 
Land Management in cooperation with the Western Electricity 
Coordinating Council, Western Governor's Association, and the Council 
of Western State Foresters, sponsored the ``Promoting Effective 
Collaborations Between Electric Utilities and Land Management 
Agencies'' workshop. The workshop objective was to explore 
responsibilities, expectations and issues in order to benefit public 
lands while maintaining the reliability of the electric transmission 
system. This workshop has helped build relationships between electric 
utilities and the federal land managers as well as establish a mutually 
agreed upon framework for operations.
    <bullet>  The National Forests Supervisor's Council of Arizona, the 
Arizona Public Service Commission (APS), the Western Area Power 
Administration (WAPA) and the Salt River Project (SRP) have formed a 
Utility Vegetation Management (UVM) working group to establish 
guidelines for utility corridor maintenance. The guidelines address 
such issues as the development of clearing standards for the separation 
needed between power lines and vegetation to prevent outages and fires. 
The UVM working group has almost completed these guidelines for the 
preparation of individual operating plans. Once clearing standards are 
finalized in an operating plan, the utility company will be able to use 
those same standards to meet their reliability requirements.
    <bullet>  Working collaboratively in California, the Forest Service 
and the Pacific Gas and Electric Company (PG&E) outlined a course of 
action that reduces the number of authorizations by combining 
individual permits into master authorizations for each Forest, 
standardized permit terms, conditions and operating plans between 
Forests. The process was piloted in the spring of 2005 on the Plumas 
National Forest. Based on the successful results of the pilot run, the 
program was implemented on four more Forests. The results are promising 
due in large part to PG&E's strong commitment to sound land stewardship 
practices and an extensive knowledge of resource issues and challenges 
related to utility management.
Energy Policy Act of 2005 (P.L. 109-58)
    We along with other federal land managers continue to assess the 
existing designation of electric transmission facilities and corridors 
and plan for future developments. After enactment of the Energy Policy 
Act of 2005, Congress requested the Secretaries of Agriculture, Energy, 
and the Interior and the Chairman of the Council on Environmental 
Quality to prepare a report assessing the status of electric 
transmission and distribution corridors and transmission facilities on 
federal land.
    The Forest Service contributed the following specific information 
to the November 2005 Report to Congress:
    <bullet>  The Forest Service has designated 317 electric 
transmission and distribution corridors through National Forest land 
management plans (Forest Plans).
    <bullet>  The Forest Service is proposing to designate an 
additional 44 electric transmission and distribution corridors through 
Forest Plan revisions or amendments.
    <bullet>  The Forest Service is assessing 13 applications for 
electric transmission facilities.
    <bullet>  A total of 1,803 electric transmission and distribution 
rights-of-way are expected to be reauthorized over the next 15 years.
    <bullet>  The delays in processing both reauthorization of electric 
transmission rights-of-way and designation of proposed electric 
transmission corridors under FLPMA result from legal challenges, delays 
in other federal agency approvals, request for extended public comment 
periods, the complexity of some requests, and competing priorities 
affecting staff resources and workloads.
    In March 2006, the Forest Service promulgated regulations to 
recover the costs of processing special use applications and monitoring 
compliance with special use authorizations in part to provide 
additional resources to respond effectively to the increase in rights-
of-way applications and renewals. Taking this action should provide 
more effective management of rights-of-way.
    Additional efficiencies are expected through the development and 
completion of the West-Wide Energy Corridor Programmatic Environmental 
Impact Statement that is being conducted pursuant to Section 368 of the 
Energy Policy Act of 2005. This study will gather and interpret 
information on all energy corridors--oil, gas, hydrogen pipelines, and 
electric transmission and distribution facilities--in Arizona, 
California, Colorado, Idaho, Montana, New Mexico, Oregon, Utah, 
Washington, and Wyoming. A similar study will be conducted for the 
remaining contiguous United States by August 2009.
Conclusion
    The Forest Service working with holders of authorizations of 
electric transmission rights-of-way expects to make further progress in 
managing undesirable vegetation in and adjacent to federally managed 
rights-of-way. As was mentioned earlier, proper and coordinated 
planning for right-of way management is critical for the Forest Service 
to expedite any approvals necessary to allow permit holders to comply 
with standards for vegetation management.
    Mr. Chairman, with the new authorities that we have been given and 
the dedication and talent of the Federal land management agencies and 
our partners, we are confident that we will make significant 
improvements in the management of electric transmission rights-of-way. 
We will continue to work with our utility partners, other federal, 
state, and local partners to accomplish this. We appreciate your 
support. I would be happy to answer any questions the committee may 
have.
                                 ______
                                 
    Mr. Radanovich. Thank you, Mr. Holtrop. I appreciate your 
testimony.
    You know, everything is just kind of shortened to the point 
the testimony that we heard from the previous panel, it makes 
us look stupid, it makes your agency look foolish. It just 
makes the Federal Government look like idiots.
    How do you suggest changing this thing so that we don't 
have to listen to this kind of testimony or get these kinds of 
complaints any more? Is it going to be an MOU? Is it going to 
take legislative change, as well, do you think?
    Mr. Holtrop. I think there is a multitude of approaches 
that we could take, and we ought to take every one of them that 
is going to be effective for us.
    I do believe that the MOU that we are talking about has a 
great deal of potential to be very effective for us, the one 
that we are working on with Edison Electric. I also believe 
that some of the other work that is already being done in pilot 
approaches, such as what is being done on the Plumas National 
Forest in California with PG&E, has potential to be utilized in 
other places.
    So I think there are things that we can be doing and should 
be doing administratively. There may be some things, as we talk 
about, for instance, the limited liability, and we have the 
opportunity to express what some of the basis in law is for the 
limited liability policies that we have in place. Maybe there 
are some legislative solutions that we may need to take a look 
at.
    Mr. Radanovich. How about firing people that postpone and 
push off things for five years, that should be done 
immediately?
    Mr. Holtrop. If there is a performance problem, we need to 
take care of the performance problems, there is no question 
about that. With some of the issues that we are talking about, 
if there is a very small activity, such as the, I believe it 
was on the Umatilla with the removal of a single tree, that it 
took nine months. I would like to think that that is an 
extraordinary circumstance, it doesn't happen all the time. But 
if it does, I agree that is not acceptable, it is not 
appropriate.
    If there is some reason that the tree should not be removed 
for some other purpose, at the very least there ought to be an 
answer far sooner than that. But at the same time, I think 
there are larger issues and larger projects that are being 
proposed that are going to take time from time to time.
    And when you are talking about sometimes needing a three- 
to five-year lead time for getting something completed, that 
three to five years should include the recognition that once a 
utility recognizes that is a project that they want to have 
completed, and they let us know that, that three to five years 
gives us time to plan for when we are going to begin the NEPA 
process, to do the NEPA process, and then get the project 
completed. And that all ought to be included in that.
    And if it is like a relocation of a right-of-way or a new 
right-of-way, a new transmission line corridor or something 
like that, those type of timeframes are probably going to 
occur. But if it is regular treatment of vegetation for the 
management of an existing right-of-way, again, I believe a 
great deal of the solution is in preparing jointly prepared 
management plans for those rights-of-way that establish what 
are the standards, and what do we need to do to be able to move 
forward.
    Mr. Radanovich. Maybe you can answer on the pole hole heard 
around the country, as we heard earlier today. What kind of 
culture could possibly be in the Forest Service that would 
allow a staffperson make somebody wait that long to dig a 
posthole a mile and a half from the creek and 12 miles from the 
river, thinking that that posthole might have an environmental 
impact on an endangered species? Is there a culture in the 
Forest Service that promotes this kind of stuff?
    Mr. Holtrop. I don't believe there is a culture in the 
Forest Service that promotes that kind of stuff. I believe we 
do have an agency of about 35,000 employees, and of course 
there are some people who have some pretty strong opinions 
across the spectrum. And we need to find ways to make sure we 
are valuing those opinions. But we also have to have an 
opportunity to have processes that avoid those types of 
circumstances.
    One of the things that I committed to, and I will commit to 
again, is that some of those individual specific instances, 
such as that one, I am not prepared to answer what happened in 
that particular case. I will look into it, and I will be happy 
to share with you what I find out, and what we will have to do 
about it.
    Mr. Radanovich. I certainly would appreciate it. How do I 
do this?
    Mr. Walden. You are the Chairman.
    [Laughter.]
    Mr. Radanovich. Mrs. Napolitano.
    Ms. Napolitano. Either one of us are going to add time, so 
it doesn't make any difference who goes first.
    What is the Forest Service Agency's wide guidance for 
vegetative management? Is there something in writing that 
specifies, that directs, that communicates to all the different 
Forest Service Agencies how to deal with them? Is there a 
standardization? Is there a guideline, a manual, anything? What 
do you have?
    Mr. Holtrop. We do have a manual, and we have handbooks. 
And there is a wide array of vegetation management treatments.
    If the question is particularly focused on is there 
guidance, national policy for the management of vegetation in 
and around power line corridors----
    Ms. Napolitano. That is the question.
    Mr. Holtrop.--and power lines, yes, there is national 
guidance. But at the same time, we are recognizing that when we 
provide national guidance for 193 million acres in 42 states, 
that a power line corridor on the Ocala National Forest in 
Florida is very different than a power line corridor in the 
Hela National Forest. And we need to take that into account.
    But at the same time, as the previous panel talked about, 
and I agree, that there ought to be some things that are 
consistent from place to place. But I also believe that there 
are some things that make sense for us to allow local land 
managers to make decisions that have enough flexibility to make 
decisions that make sense in a local location, as well.
    Resources vary from place to place. Endangered species vary 
from place to place. And so I don't think a standard practice 
that works across the whole nation is necessarily the only 
solution that we can have.
    I do believe that we can provide some national guidance 
that takes care of many of the types of concerns that we heard 
about.
    Ms. Napolitano. So the one-size-fits-all standardization 
might not be an answer; it might be a worsening of the problem.
    Mr. Holtrop. If we take it to an extreme, it could possibly 
become more of a problem. If we don't allow local utilities and 
land managers to make decisions that make sense locally by 
having been too restrictive on one size fits all on a national 
level.
    At the same time, I do believe there are some, and there 
are existing national standards that should apply to the 
management of rights-of-way on the national forests.
    Ms. Napolitano. In listening to the testimony in the prior 
panel, it seems that major complaints are that regulations are 
vague and inconsistent, and that the agencies are slow to 
respond to the permits. And again I pose the question to you, 
is funding an issue? Or is it that the Forest Service has no 
comprehensive guidance for this vegetation management?
    Mr. Holtrop. Well, as in everything, if there were more 
money, we could do more things. But at the same time, one of 
the steps that we have taken earlier this year is to do a 
regulation for cost recovery, in which we will be able to 
recover the cost of permit administration and permit monitoring 
for special use permits across the board. And that should free 
up some additional resources available to us, as well.
    But I think it is imperative upon us as an agency, in an 
era of fiscal restraint, for us to find ways to be efficient 
and cost-effective in the way that we expend scarce Federal 
dollars. And I believe the previous panel had several 
suggestions that make sense for us to work more closely with 
the utilities to accomplish some of those types of things.
    Again, I believe we can accomplish a great deal by pre-
planning together what the right-of-way management strategies 
ought to be for a corridor. By doing that, we develop 
relationships, we develop communication strategies. And I think 
that can go a long way toward resolving many of these 
conflicts. And I am committed to continuing to work to make 
sure that we are moving in that direction.
    Ms. Napolitano. Now, some of these permits, they cost the 
utilities money, right? To go after some of the permits? Or is 
it a free service?
    Mr. Holtrop. The permits for the transmission lines and the 
corridors?
    Ms. Napolitano. To go in and clean up, to do any kind of 
permitting along the rights-of-way.
    Mr. Holtrop. The maintenance costs, the development of the 
environmental documents, et cetera, are borne by the utility. 
Am I answering your question?
    Ms. Napolitano. Yes, to a certain degree, because you kind 
of hit a nerve about looking at fee-based services, is what I 
am listening. And what are those going to be, and where are 
they going to be? And are you going to regain some of the cost 
doing fee-basing of permitting? What areas are you looking at?
    Mr. Holtrop. Well, the policy is going to allow us to 
collect that for special use permits across the board. Again, I 
am not sure I am answering the question that you are asking. 
But what it would allow us to do is to recover the cost, the 
government's cost of preparing the permit, and of monitoring 
the permit. And by doing so, that will help supplement some of 
the existing resources that we have available to work in those 
places. Again, as the earlier panel indicated, there are some 
places where there just are not the people necessary to 
accomplish the work that they feel is necessary.
    So I think it is incumbent upon us to find ways to get that 
funding. It is incumbent upon us to work more closely with our 
partners, the utilities, to accomplish the work that needs to 
be done.
    Ms. Napolitano. How badly or how heavily are you going to 
be impacted by the reduction of, what is it, $481 million? Let 
us see, what am I looking at here? By fuel reduction of $491 
million for hazardous fuels reduction.
    Mr. Holtrop. We continue to make progress in the number of 
acres of vegetation that we are treating in each year. Again, 
in an era of fiscal restraint, we put together a budget that we 
feel reflects the full array of resources needs, and most 
accurately reflects what we should be doing, given the 
resources that are available to us.
    As I have mentioned, in any resource program, more funding 
would certainly allow us to do more work. But at the same time, 
I think we have a responsibility to find ways to accomplish as 
much work as we are able to accomplish with the funds that are 
available to us.
    Ms. Napolitano. I am still harping on the same question. If 
you are going to reduce services, to be able to cut down, are 
you going to recoup those services by increasing the fees for 
permitting or whatever else, it does not quite make sense. If 
we have been doing this for eons, for decades, would providing 
the service along with the utilities' assistance, et cetera, 
for the protection of a nation's power delivery, what is going 
on, sir?
    Mr. Holtrop. I think there are maybe a couple of 
circumstances that I am thinking about, that I hope are 
responsive to your question.
    One is we need to recognize there are differences in terms 
of the payment for the right to have a permit on the national 
forest system lands. In some cases, some utilities pay a fee 
for the permit; other utilities, such as rural electric 
cooperatives, don't pay a fee for the actual special use 
permit. The cost that they have is for the maintenance and the 
provision, and it goes all the way back, again as the earlier 
panel talked about, the historical reason for the rural 
electric facilities. So the purpose for the payment of the 
fees, there is different circumstances there.
    What the Forest Service is doing is modifying the fee 
structure for processing our special use permits, and that is 
based on Congressional direction to develop a program to 
improve the administration of our agency's special use program.
    And so under this new rule, the Forest Service will collect 
fees from some permit applicants to recover the costs of 
processing and administering special use authorizations, 
consistent with the recommendations made by the General 
Accounting Office. So we are responding to Congressional 
direction to have a more improved administration of our special 
use program, and we are modifying that fee structure to allow 
us to process those permits and collect the cost to the 
government in order to both process those permits and monitor 
them.
    Ms. Napolitano. Are you, in essence, saying that the 
reduction of those $760 million authorized by Congress under 
the Healthy Forest Act is the authorities given to you to be 
able to do that? Is that correct? Is that what you are alluding 
to?
    Mr. Holtrop. I am sorry, I am not sure what the $760 
million----
    Ms. Napolitano. Well, are the Forest Service and the 
funding for hazardous fuels reduction at the $760 million level 
authorized by Congress under the Healthy Forest Restoration Act 
of 2003?
    Mr. Holtrop. They are different. There is not a 
relationship between the hazardous fuels funding and this 
approach to try to better fund our special use administration 
program. Hazardous fuels funding, the request for hazardous 
fuels funding is a request that we made based on a recognition 
of what land management needs are across the spectrum of the 
national forest system for treating the vegetations that are 
hazardous, and this other approach is just to improve the 
management of our special use program.
    Ms. Napolitano. Thank you. I thought there was a nexus 
there, and apparently is, maybe in my mind. But then again, 
that is another question.
    When you were talking about getting information 
disseminated to different agencies by email to expedite the 
process, whereas the utilities would be able to move along on 
their removal of whatever brush or dead trees there are, what 
capability, or do you have adequate infrastructure for 
computers at all these different areas to be able to receive 
the information to carry out those orders?
    Mr. Holtrop. Yes, we do have an email system where all 
employees have email capabilities at each of their desks. So 
yes, we have the infrastructure to send an email to all 
employees. We can do that.
    Ms. Napolitano. And the last bit of that is, what would you 
think of standardizing training for all your agency heads to 
understand at the same time, the same message?
    Mr. Holtrop. I think that that is a good idea. We have that 
included in the MOU we are working on with Edison Electric. 
That is a part of that. I think there is never a situation in 
which, as circumstances change, as the world changes, all of 
our leaders throughout the Forest Service can always benefit 
from continued training. That is something that we are 
committing to doing, and will need to continue to do.
    Ms. Napolitano. Thank you, Mr. Chair, for your indulgence.
    Mr. Radanovich. Thank you. Mr. Walden.
    Mr. Walden. Thank you, Mr. Chairman. Joel, I want to go 
through this, because there is sort of, as I hear it, apples 
and oranges.
    The $760 million that my colleague from California 
references in authorization was in the Healthy Forest 
Restoration Act for thinning projects and hazardous fuels 
removal, correct?
    Mr. Holtrop. Yes.
    Mr. Walden. OK. I am assuming, and I know you didn't 
support that legislation when it came through the committee or 
the House, but I think that is the 760 you are talking about 
that is the concern you have, that maybe the Administration 
hasn't fully funded the authorization that you opposed. But 
that is another issue.
    But my understanding is since 2000, your agency has had a 
quadrupling of funding in this area.
    Mr. Holtrop. That is correct.
    Mr. Walden. A fourfold increase, a fourfold increase in the 
funding for this area since 2000. So there has been a 
quadrupling. And currently the funding request for hazardous 
fuels reduction work fully funds at $760 million, correct? But 
it is not all new money.
    Mr. Holtrop. Yes. I am not prepared to answer that.
    Mr. Walden. That since 2000, you have quadrupled the amount 
of acreage as well, haven't you?
    Mr. Holtrop. Yes, both through the use of hazardous fuels 
funds, plus we have prioritized other vegetation management 
programs to be focused in areas that most need treatment.
    Mr. Walden. And that is where you have brought other money 
in within the budget. I mean, there is a bit of an argument 
here about whether you have shifted the existing funds over to 
help meet that full $760 million authorization. And I probably 
concur with my friend from California that more money could be 
spent under that authorization, and back to other programs. But 
indeed, I think you are at the full $760 million the way you 
account for it.
    But in any case, it is four times what was being done prior 
to 2000.
    Mr. Holtrop. That is correct.
    Mr. Walden. And quadrupled in terms of acreage treated. 
None of that, however, has to do with the rights-of-way issue 
for power lines, because they pay for that treatment, correct?
    Mr. Holtrop. That is correct. The only nexus between those 
would be, as the previous panel was talking about, there are 
circumstances where we have large areas of bug-killed timber, 
in which there is a concern that the forest health condition 
might create a----
    Mr. Walden. In those areas that are adjacent to the power 
lines, are you failing to treat those because of the lack of 
funds?
    Mr. Holtrop. As again the previous panel mentioned, there 
are areas in Arizona, there are areas in Montana, there are 
areas in Oregon and throughout the country--Colorado and 
California--in which we have large acreages of bug-killed 
timber.
    Mr. Walden. I understand that. But are those adjacent to 
the rights-of-way?
    Mr. Holtrop. Some of them are adjacent to rights-of-way, 
and some of them----
    Mr. Walden. OK, here is what I would like to get, is a list 
of those that are adjacent to rights-of-way where you lack the 
money to do treatment that your agency believes those areas 
need to be treated.
    Mr. Holtrop. We will work on getting you that answer, yes.
    Mr. Walden. I mean, because if that is an issue, we need to 
know about it. I am assuming you have the funding, the ability 
to set priorities. And if that is the priority area to treat, 
the budget you have requested should give you the funds to 
treat those areas.
    Mr. Holtrop. We certainly have the ability to prioritize 
where we do the work, within the budget that we have requested.
    Mr. Walden. And then I guess I want to go to this issue of 
strict liability. And you and I have discussed this specific 
issue before in Cascade Locks and elsewhere. But I think it is 
a legitimate one, where a power company co-op or other says we 
need to go do this. In our best judgment, there is an issue 
here with a tree that is technically outside of our right-of-
way, but taller than 30 feet, that could fall into the lines. 
And in this one case, and I know it may be an isolated case, 
but nine months later the tree is still there, and the decision 
hasn't come yet.
    Is it really fair, if it has sort of been before your 
agency for nine months, that a strict liability provision would 
be applied to the power company if that tree falls and ignites 
a fire this summer?
    Mr. Holtrop. The circumstances at Cascade Locks and the 
many circumstances that we talked about in the previous panel, 
that we heard about in the previous panel, do indeed cause me 
to say I think the next step on this is for us to work closely 
with the Subcommittees to understand the FLPMA, which requires 
us to have the liability for high risk, especially if this is 
on public lands. And the relationship between that legal 
requirement that we have and the regulations that are in place, 
it is that 1976 law, so for the past 30 years. And perhaps 
there are some areas for improvement.
    Mr. Walden. I know your agency has been, you know, of late 
very progressive in looking at, for example, ISO standards, ISO 
9000 standards. Isn't this an area where that would make sense?
    It just seems to me, Joel, that you all have the brain 
power and the ability to sit down and say when it comes to a 
right-of-way, here is what we want to the power company, here 
is your authority to meet this standard. And then you audit it 
once in a while to make sure they are not out, you know, 
cutting trees 200 yards back and selling them to somebody, and 
I don't think they are going to do that.
    My point is it seems to me that a lot of money and effort 
is spent, and a lot of delay occurs, that could be catastrophic 
in nature over these single-tree issues or things like that, 
that I would think that once you have done the NEPA for a new 
right-of-way, then there ought to be a plan in place that 
allows them to maintain that right-of-way to a common-sense 
standard, and allow them to be certified to do that or 
something.
    That frees up your people then to do more meaningful work. 
I mean, arguing over a post hole 12 miles from a stream with 
endangered fish, a mile from the nearest creek, doesn't seem to 
be a very productive use of taxpayer resources. Or, for that 
matter, the ratepayer cost, because that is the other side of 
this equation. If we can hold cost of power rates down, and we 
can get your folks involved in the work that is so needed 
elsewhere that will have more dramatic effect. Is that 
something you think you can move toward?
    Mr. Holtrop. I think what you are saying makes a great deal 
of sense. And I think it is very consistent with the theme in 
my testimony, as well, in which I believe pre-planning--there 
are aspects of land management that we in the Forest Service 
have some expertise in, and are able to make some reasoned 
input into what is the right way to treat a piece of land.
    By the same token, we are not the experts in electricity 
transmission. And so it is truly a partnership that needs to be 
formed between us and the utilities. And I really believe that 
if we do the type of pre-planning for these corridors, we can 
resolve many of these issues very expeditiously.
    Mr. Walden. This Subcommittee has enjoyed working with you 
and your agency folks to solve a lot of problems over the last 
few years, and I have every confidence that, given your 
leadership and that of the agency, this one can be addressed in 
a thoughtful, meaningful, and effective way, too. So I 
appreciate your willingness to stay and meet with these folks, 
and see if we can't get something going.
    I hope you will get back to us and let us know how that 
process unfolds, and what is possible. And if you need 
legislative changes somehow to give you additional authorities 
or whatever to bring some common sense to our land management 
laws, do let us know. We are happy to take a look at that as a 
subcommittee. Because I think we can find a balanced and better 
way than we are operating today, and I am sure you concur on 
that notion.
    Mr. Holtrop. I do. And I appreciate your support, and look 
forward to working with the committee and working with the 
members of the previous panel, and our partners in utilities 
across the country, to accomplish those things.
    Mr. Walden. As always, we appreciate your testimony and 
help. Thank you.
    Mr. Holtrop. Thank you.
    Mr. Radanovich. Thank you, Mr. Walden. And thank you, Mr. 
Holtrop, for your testimony. Now let us work together and solve 
this problem.
    With that, again, thank you. And this hearing is closed.
    [Whereupon, at 12:20 p.m., the Subcommittee was adjourned.]

                                 <all>

</pre></body></html>
